   TIGTA Semiannual Report to Congress


                                Message from the IG


                       T     his year we are proud to join in the observance of the
                            25th anniversary of the Inspector General (IG) Act. We will describe
                            the evolution of the Treasury Inspector General for Tax Administration
                       (TIGTA), one of the newer IGs established in 1999, and our continued
                       contribution to the IG community and the public-at-large (see page 5).

                       In looking over the past six months, we have continued to operate
                       successfully during a period of transition and critical developments. We
                       began 2003 by welcoming a new Secretary of the Treasury, John W. Snow.
                       Additionally, the divestiture of a significant portion of Treasury resources to
 Acting Inspector      the Department of Homeland Security has had a major impact throughout
     General
                       the Department.
Pamela J. Gardiner
                       We are eagerly anticipating working with a new Commissioner of Internal
                       Revenue, as well as a new Internal Revenue Service (IRS) executive
                       leadership team. During IRS’ transition period, it is vital for TIGTA’s work
                       to provide useful, balanced information to decision-makers. We are doing
                       this by supporting IRS in achieving its strategic goals, identifying and
                       addressing IRS’ material weaknesses, and by ferreting out and neutralizing
                       threats posed to tax administration by corruption, fraud, and terrorism.
                       Our accomplishments during this reporting period helped improve tax
                       administration and subsequently aided taxpayers nationwide. With the
                       issuance of 89 audit reports, we identified more than $43 million in cost
                       savings, and an additional $12.8 million in increased revenue or revenue
                       protected. Our audits assessed such IRS operational and programmatic
                       issues as business systems modernization, tax compliance initiatives,
                       computer and physical security, performance and financial management,
                       customer service, returns processing, and the filing season.

                       To combat fraud, waste and abuse, our investigative work centered on IRS
                       employee integrity, IRS employee and infrastructure security, and external
                       attempts to corrupt federal tax administration. During this reporting
                       period, we received 3,997 complaints of alleged criminal wrongdoing or
                       administrative misconduct. We opened 2,487 investigations and closed
                       2,489. Additionally, Counsel reviewed 85 proposed regulations and
                       legislative requests. Highlights of our work are included in this Semiannual
                       Report to Congress.




 Message from the IG                                                                          Page 1
  TIGTA Semiannual Report to Congress


                      As we approach the second half of the fiscal year, we look forward to
                      working with the new Treasury and IRS executives and with Congress to
                      establish a productive relationship that benefits the public through
                      improved tax administration.



                      Sincerely,




                      Pamela J. Gardiner

                      March 31, 2003




Message from the IG                                                                    Page 2
  TIGTA Semiannual Report to Congress


                                     Table of Contents
                                                                                                             Page

                    Message from the IG ................................................................1

                    25th Anniversary of the IG Act .................................................5

                    TIGTA’s Organizational Structure............................................8

                    TIGTA Strategic Goal: Improving the Economy,
                    Efficiency and Effectiveness of Tax Administration ............. 11
                           IRS Systems Modernization ................................................. 12
                           Tax Compliance Initiatives .................................................. 13
                           IRS Security ....................................................................... 14
                           Integrating Performance and Financial Management ............ 16
                           Customer Service, Returns Processing and the Filing
                             Season ............................................................................ 18
                           Taxpayer Protection and Rights ........................................... 21

                    TIGTA Strategic Goal: Detecting and Deterring Fraud in
                    IRS Programs and Operations .............................................. 25
                           IRS Employee Integrity ....................................................... 26
                           IRS Employee and Infrastructure Security ............................ 27
                           External Attempts to Corrupt Tax Administration .................. 30

                    Congressional Testimony ...................................................... 32

                    Kudos...................................................................................... 32


                    Appendices
                    Appendix I Audit Statistical Reports
                           Audit Reports With Questioned Costs................................... 33
                           Reports With Recommendations That Funds Be Put to
                            Better Use ....................................................................... 34
                           Reports With Additional Quantifiable Impact on Tax
                            Administration.................................................................. 35
                           Prior Period Reports .......................................................... 37




Table of Contents                                                                                            Page 3
  TIGTA Semiannual Report to Congress
                                                                                                            Page

                    Appendix II Investigations Statistical Reports
                          Investigations Opened and Closed ....................................... 39
                          Financial Accomplishments.................................................. 39
                          Status of Closed Criminal Investigations .............................. 40
                          Criminal Dispositions .......................................................... 40
                          Administrative Disposition on Closed TIGTA
                           Investigations .................................................................. 41
                          Complaints/Allegations Received by TIGTA .......................... 42
                          Status of Complaints/Allegations Received by TIGTA ............ 42
                          Allegations of Misconduct Against IRS Employees ................. 43

                    Appendix III Statistical Reports — Others
                          Audit Reports With Significant Unimplemented Corrective
                           Actions ............................................................................ 47
                          Statistical Reports - Others ................................................. 58

                    Appendix IV Audit Products
                       (October 1, 2002 – March 31, 2003) .................................... 59

                    Appendix V Statutory TIGTA Reporting Requirements................. 67

                    Appendix VI Section 1203 Standards......................................... 73


                    Hotline Information ............................................................... 75




Table of Contents                                                                                           Page 4
    TIGTA Semiannual Report to Congress


                                25th Anniversary of the IG Act
                                 his marks the 25th year of the IG Act, 1 which was enacted on

                         T      October 12, 1978. Today, it remains the cornerstone for
                                centralized, independent audits and investigations that foster
                          accountability and integrity in government programs and operations.
                          Currently, there are 57 statutory IGs who view themselves as “agents of
                          positive change,” providing a significant, positive force in the federal
                          government for improving economy, efficiency, and effectiveness;
                          strengthening accountability and transparency; and detecting and
                          deterring fraud, waste, and abuse.


TIGTA’S                   IRS’ Office of Chief Inspector (also known as the Inspection Service) was
                          created in October 1951 in response to reports of widespread corruption
EVOLUTION                 in IRS. The Chief Inspector reported directly to the Commissioner and
                          Deputy Commissioner and derived specific and general authority by
                          delegation from them.

                          In 1998, after comprehensive consideration of the operations and
                          organization of the IRS,
                          Congress ordered sweeping               TIGTA’s STATUTORY MISSION
                          changes. As part of its IRS
                          reorganization, Congress             • Protect the IRS against external
                          concluded that the Inspection              attempts to corrupt or threaten its
                                                                     employees.
                          Service lacked sufficient
                                                               • Provide policy direction and conduct,
                          structural and actual autonomy             supervise and coordinate audits and
                          to provide the needed oversight            investigations relating to the
                          to IRS. Further, the relationship          programs and operations of IRS.
                          between the Treasury IG and          • Prevent and detect fraud, waste, and
                          the IRS’ Office of Chief                   abuse in IRS programs and
                          Inspector did not foster                   operations.
                                                               • Promote economy and efficiency in the
                          appropriate IRS oversight.
                                                                              administration of the tax laws.
                                                                       •    Inform the Secretary of Treasury and
                          Congress decided to establish                       Congress of problems identified and
                          an independent IG within the                        the progress made in resolving them.
                          Department of Treasury. Its           •           Review existing and proposed
                          primary focus and                                   legislation and regulations relating to
                          responsibility would be to                          programs and operations of IRS and
                                                                              make recommendations concerning
                          audit, investigate, and
                                                                              the impact of such legislation or
                          evaluate IRS programs to                            regulations.
                          improve the quality and
                          credibility of IRS oversight. As a result, the Internal Revenue Service
                          1
                              Inspector General Act of 1978, 5 U.S.C.A. app. 3 (West Supp.2003).


  25th Anniversary of the IG Act                                                                       Page 5
   TIGTA Semiannual Report to Congress

                         Restructuring and Reform Act of 1998 (RRA 98) 2 created TIGTA, and it
                         became an operational IG in 1999.

                         Early on, TIGTA concentrated on becoming compliant with numerous
                         laws and IG regulations and assuring that it operated in a manner
                         compatible and conforming with Treasury policies. Simultaneously,
                         TIGTA addressed the need to significantly increase productivity levels.
                         TIGTA immediately abolished the regional structure of its predecessor
                         organization, which eliminated an unnecessary and remote layer of
                         management. TIGTA organized the Office of Investigations into direct
                         report field offices and the Office of Audit reorganized into specialized
                         issue areas that parallel IRS’ business unit structure. TIGTA was able to
                         provide internal support services more efficiently and eliminated
                         two layers of management through its streamlining efforts. TIGTA also
                         identified ways in which audits and investigations could be completed
                         faster and more efficiently.

                         Ahead of the curve, TIGTA integrated its budget and performance
                         functions before this became one of the top issues of the
                         President’s Management Agenda.3 TIGTA fully embraced the idea
                         of telecommuting by instituting a program, entitled the Virtual
                         Resource Solution. Currently, 98% of TIGTA employees are
                         eligible to telecommute and, of these, 37% actually do so two or
                         more days per week.


                         •     FINANCIAL ACCOMPLISHMENTS TIGTA has significantly increased its
  TIGTA                        productivity levels despite having reduced historic full-time equivalent
HIGHLIGHTS                     (FTE) staffing. For FY 2002, TIGTA had financial accomplishments
                               resulting from proposed cost savings and increased revenue/revenue
                               protected of $800.5 million. TIGTA continues to be a good
                               investment for the American public. For FY 2002, we returned $6 for
                               every budget dollar invested in TIGTA. For every FTE, we returned
                               $862,000.

                         •     PCIE SUPPORT Between 1999 and 2003, TIGTA managed the
                               Inspector General Training Academy, which was partially staffed by
                               TIGTA personnel. Additionally, TIGTA’s Inspector General served as
                               editor-in-chief of the President’s Council on Integrity and Efficiency
                               (PCIE) Journal of Public Inquiry from 1999 through 2002.


                         2
                           Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98)
                         Pub. L.105-206, 112 Stat. 685. (codified as amended in scattered sections of 2 U.S.C.,
                         5 U.S.C., 5 No. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C.,
                         38 U.S.C., and 49 U.S.C.)
                         3
                             The President’s Management Agenda FY 2002, Office of Management and Budget.

 25th Anniversary of the IG Act                                                                        Page 6
  TIGTA Semiannual Report to Congress

                        •   COUNTER-TERRORISM VIGILANCE After the terrorist attacks of
                            September 11, 2001, TIGTA faced great challenges in combating
                            terrorism targeted at the IRS. In response to heightened security
                            concerns and TIGTA’s responsibility for investigating threats against
                            the IRS and its employees, TIGTA established a Counter-Terrorism
                            Section (CTS). The CTS coordinates investigative efforts and is the
                            centralized repository and dissemination point of threat information to
                            the IRS. The CTS proactively identifies domestic and international
                            threats made to the IRS by participating on nationwide Federal
                            Bureau of Investigation (FBI) Joint Terrorism Task Forces (JTTFs);
                            evaluating information developed by JTTFs and other sources;
                            initiating investigations; and issuing intelligence reports and advisories
                            notifying TIGTA and IRS management of potential threats.

                        In noting this 25th anniversary, TIGTA continues to support the IG
                        community and serve the American public by successfully carrying out the
                        intent and statutory requirements of the IG Act.




25th Anniversary of the IG Act                                                              Page 7
   TIGTA Semiannual Report to Congress

                           TIGTA’s Organizational
                                  Structure

               T      IGTA provides independent oversight of IRS activities, the IRS
                     Oversight Board, and the IRS Office of Chief Counsel. TIGTA is
                     organizationally placed within the Department of Treasury, but it is
                independent of the Department and all other Treasury offices. TIGTA’s
                focus is devoted to all aspects of work related to tax administration.

                TIGTA’s primary organizational functions are the Office of Audit (OA) and the
                Office of Investigations (OI). TIGTA’s Offices of Chief Counsel, Information
                Technology, and Management Services support OA’s and OI’s efforts.

                TIGTA is structured to conduct audits and investigations designed to:

                •   Promote economy, efficiency, and effectiveness in administering the
                    nation’s tax system.
                •   Detect and deter waste, fraud and abuse in IRS programs and
                    operations.
                •   Protect IRS against external attempts to corrupt or threaten its
                    employees.


AUTHORITIES     TIGTA has all the authorities granted under the Inspector General Act of
                1978, as amended. TIGTA also has access to tax information in the
                performance of its tax administration responsibilities and has the obligation
                to report potential criminal violations directly to the Department of Justice.
                The IG and the Commissioner of Internal Revenue have established policies
                and procedures delineating responsibilities to investigate potential criminal
                offenses under the internal revenue laws.

                In addition, RRA 98 amended the Inspector General Act of 1978 to give
                TIGTA statutory authority to carry firearms and execute the provisions of
                the Internal Revenue Code (I.R.C.) §7608(b)(2). These provisions include
                law enforcement authority to execute and serve search warrants, serve
                subpoenas, and make arrests.




 TIGTA’s Organizational Structure                                                           Page 8
  TIGTA Semiannual Report to Congress


                                   TIGTA ORGANIZATIONAL
                                          CHART




                                                Inspector
                                                 General



                              Chief
                             Counsel



                  Deputy Inspector                            Deputy Inspector
                  General for Audit                             General for
                                                               Investigations




                Assistant Inspector                          Assistant Inspector
                   General for                                  General for
                  Management                                    Information
                      Services                                  Technology




               The following two report sections highlight TIGTA’s significant audit and
               investigative activities for this semiannual period.




TIGTA’s Organizational Structure                                                           Page 9
TIGTA Semiannual Report to Congress




                               Page 10
   TIGTA Semiannual Report to Congress


                   TIGTA Strategic Goal:
             Improving the Economy, Efficiency
                 and Effectiveness of Tax
                      Administration

                      T       IGTA provides an independent oversight function to IRS, which
                             collects more than $2.1 trillion annually to fund the nation’s
                             government. TIGTA ensures that it meets the strategic goal of
                        improving the economy, efficiency and effectiveness of tax administration
                        by focusing resources on fundamental goals related to IRS’ programs.
                        Emphasis is also placed on statutory coverage imposed by RRA 98, as
                        well as areas of concern to the Commissioner of Internal Revenue.

                        Each year, TIGTA identifies the major management challenges facing
                        IRS. The MAJOR MANAGEMENT CHALLENGES in FY 2003, in order of
                        priority, are:



                               SYSTEMS MODERNIZATION
                               TAX COMPLIANCE Initiatives
                               SECURITY
                               • Employees and Facilities
                               • Information Systems
                               INTEGRATING PERFORMANCE and FINANCIAL MANAGEMENT
                               PROCESSING RETURNS and Implementing TAX LAW CHANGES
                               COMPLEXITY of the TAX LAW
                               Providing Quality CUSTOMER SERVICE Operations
                               ERRONEOUS PAYMENTS
                               TAXPAYER PROTECTION and Rights
                               HUMAN CAPITAL




                        This section highlights the significant contributions TIGTA has made to
                        IRS programs and operations through its audits in seven of the ten major
                        management challenge areas.




Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                 Page 11
   TIGTA Semiannual Report to Congress

                                  IRS SYSTEMS MODERNIZATION
                        Dramatic improvements in service to taxpayers are heavily dependent on
                        modernizing IRS’ core computer systems, which has been an ongoing
                        challenge. IRS’ major modernization projects continue to experience delays,
                        cost increases, management difficulties, and reductions in deliverables.

BUSINESS SYSTEMS        Beginning in 2001, the Business Systems Modernization (BSM) program
MODERNIZATION:          has been deploying projects and learning valuable lessons that should
COSTS, SCHEDULES,       help improve future projects. Deployed projects have increased the
AND FUNCTIONALITY       capacity of IRS’ telephone system; improved the ability to receive, route,
                        and respond to taxpayer telephone calls; and provided refund information
                        via the Internet. However, as reported in previous TIGTA and General
                        Accounting Office reports, the BSM program has experienced difficulties
                        meeting the original cost, schedule, and functionality estimates included
                        in the BSM Spending Plans submitted to Congress.

                        So far, the eight BSM projects that are currently being developed and
                        deployed have experienced cost increases of 26% and delays averaging
                        13 months over initial estimates, most occurring during the planning and
                        design phases of these projects. The BSM Office forecasts that future
                        project costs and schedules will be much closer to the estimates. Since
                        the purpose of this review was to identify and analyze the cost, schedule,
                        and functionality performance compared to the original project estimates,
                        TIGTA made an assessment but did not make any recommendations.
                        IRS management agreed with TIGTA’s assessment.
                        Report Reference No. 2003-20-007

CUSTOMER ACCOUNT        The Customer Account Data Engine (CADE) will replace IRS’ current
DATA ENGINE – THE       Master File of taxpayer accounts, and is the foundation for managing
MASTER FILE             these accounts in IRS’ modernization plan. The individual tax accounts
REPLACEMENT             portion of the CADE will be deployed in five segments (releases) over
                        several years.

                        The following report presents the results of TIGTA’s review of Release 1.
                        IRS and its contractor have made progress in delivering the CADE project
                        by building a substantial portion of Release 1 and creating a
                        comprehensive foundation for all five releases. However, the
                        development of the CADE project by the contractor has experienced
                        significant delays, with the Release 1 deployment date now estimated to
                        be June 2003 (about 18 months behind its planned delivery date). The
                        development has also experienced cost increases, with the original
                        estimate for Release 1 of approximately $51.9 million being revised
                        six months later to $64.6 million. IRS had actually spent $54.5 million on
                        Release 1 through September 2002. Project delays can be attributed to
                        difficulties in identifying and managing the project requirements,

Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                   Page 12
   TIGTA Semiannual Report to Congress

                        specifically in developing the balancing, control, and reconciliation
                        process; comprehensive documentation for the CADE Computer
                        Operations Handbook; and computer system naming standards.

                        To help meet the Release 1 deployment expectations, TIGTA
                        recommended IRS’ BSM Office work with the contractor to ensure that
                        the business system design is completed, and establish a detailed
                        schedule of the remaining work. IRS management agreed with the
                        recommendations and is taking corrective action.
                        Report Reference No. 2003-20-089



                                   TAX COMPLIANCE INITIATIVES
                        IRS’ goal of providing world-class service to taxpayers hinges on the theory
                        that if IRS provides the right mix of education, support, and
                        up-front problem solving to taxpayers, the overall rate of voluntary
                        compliance with the tax laws will increase. The challenge to IRS
                        management is to establish a tax compliance program (examining tax
                        returns and collecting tax liabilities) that identifies those citizens who do
                        not meet their tax obligations - either by not paying the correct amount of
                        tax or not filing proper tax returns - and that effectively brings them into
                        compliance. As part of its 2000 reorganization, IRS has begun to revamp
                        its business processes to stabilize the traditional compliance activities.

LEGAL ADVICE            IRS’ Large and Mid-Size Business (LMSB) Division has been working to
PROVIDED TO             improve the timeliness of providing legal advice in LMSB Division
EXAMINERS               examinations. It has made positive organizational changes and
                        implemented new initiatives that show promise in reducing the length of
                        LMSB Division examinations. However, the length of time it takes to provide
                        legal advice to examiners is substantial because of issues in both the
                        requesting and delivering of legal services. This may hamper the Division’s
                        ability to meet its FY 2003 goal for timely completing examinations.

                        TIGTA recommended that IRS attorneys be required to assist in the risk
                        analysis process to better ensure the need for legal advice is identified
                        and requested earlier in examinations. In addition, management should
                        ensure that the data in the Office of Chief Counsel’s management
                        information system is complete so delays and other problems in the
                        delivery of legal advice can be quickly identified and addressed. IRS
                        management agreed with the recommendations and is taking corrective
                        action.
                        Report Reference No. 2003-30-021




Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                    Page 13
   TIGTA Semiannual Report to Congress

CONTRACTING OUT         TIGTA reviewed IRS’ plan to contract out some collection activity to
COLLECTION              private contractors. IRS’ preliminary planning related to the use of
ACTIVITY                Collection Contract Support (CCS) companies was extensive and included
                        a detailed evaluation of similar existing programs at other federal and
                        state government entities. IRS also prepared a draft Request for
                        Quotation (RFQ) for the CCS initiative, which it planned to issue during
                        the second quarter of FY 2003.

                        Although IRS’ preliminary planning efforts have been good, overall
                        effectiveness could be enhanced by providing greater specificity in the
                        draft RFQ regarding the management information IRS will require from
                        contractors, such as weekly telephone reports; providing more detailed
                        requirements in the draft RFQ regarding the protection of taxpayer rights;
                        and reexamining IRS’ preliminary projections regarding the volume of
                        cases to be initially released to CCS companies. IRS management agreed
                        to the recommendations and has implemented corrective actions.
                        Report Reference No. 2003-30-075


                                                    IRS SECURITY
                        The terrorist attacks on September 11, 2001 and the subsequent anthrax
                        incident highlighted vulnerabilities in many businesses and government
                        agencies. Like other organizations, IRS must remain vigilant to all
                        opportunities to enhance employee safety and the security of its
                        information systems and taxpayer data.


COMPUTER                IRS is responsible for maintaining the privacy of tax information for about
SECURITY                130 million taxpayers. To enhance security, TIGTA believes it is critical
                        that IRS understand the techniques used by those who could benefit from
                        unlawfully accessing taxpayer information. Consequently, TIGTA asked a
                        contractor to test the security access to IRS’ systems, by attempting to
                        “hack” into IRS systems both from the Internet and when given internal
                        access. The contractor found no security vulnerabilities that could be
                        exploited at the Internet gateways; but, when the contractor had access
                        to the internal computers, it found numerous security weaknesses that
                        needed corrections. Recommendations were made to correct the specific
                        weaknesses identified with which IRS management agreed.
                        Report Reference No. 2003-20-082


PHYSICAL                IRS requires both its employees and its contractors to have background
SECURITY                investigations to ensure their honesty and integrity. A TIGTA audit
                        showed that IRS had assured that 93% of the employee background


Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                  Page 14
   TIGTA Semiannual Report to Congress

                        investigations and 96% of the re-investigations were completed or
                        in-process at the time of TIGTA’s review.

                        However, contractor employee background investigations were not
                        properly controlled, and not all background investigations were requested
                        when required. Similarly, identification badges were issued without
                        required background investigation documentation, allowing more than
                        500 contractor employees to have access to IRS’ New Carrollton,
                        Maryland building without background checks.

                        TIGTA recommended that follow-up actions should be taken to initiate or
                        complete background investigations on the employees without current,
                        completed investigations; management reports should be properly used
                        to monitor timely completion of future background investigations;
                        database information should be complete and accurate; and a
                        consolidated or integrated computer system that meets the needs of all
                        stakeholders should be implemented. IRS management agreed with the
                        recommendations presented in this report and is planning corrective
                        actions. Report Reference No. 2003-20-049

                        In other physical security work, TIGTA auditors and investigators reviewed
                        IRS’ Guard Service Contract as a joint initiative because of heightened
                        security concerns after the events of September 11, 2001. Validations
                        completed through October 2002 did not identify any issues related to the
                        current employment of security guards with criminal convictions or
                        immigration violations, but TIGTA is continuing to perform additional
                        verifications and follow-up with the appropriate government agencies.

                        However, increased oversight is needed to ensure the contractor’s
                        compliance with all contract terms and conditions, particularly those
                        concerning licensing. The contractor operated for periods of time in
                        two Washington, D.C. metropolitan area offices without all company and
                        individual security guard licensing and certifications required by the
                        contract and by law. IRS paid approximately $4.7 million during the time
                        the contractor was in violation of the contract. Also, security guards at
                        one location were in effect carrying weapons without legal authority to do
                        so. TIGTA auditors recommended that additional monitoring should be
                        performed to ensure the contractor complies with all contract terms and
                        conditions; and, all remedies regarding appropriate legal action should be
                        coordinated with the United States Attorney’s Office and with TIGTA’s
                        investigative function. In addition, TIGTA recommended changes should
                        be considered to the award fee plan to make compliance with all contract
                        terms and conditions a prerequisite for award fee eligibility. IRS
                        management agreed with the recommendations and is taking corrective
                        actions. Report Reference No. 2003-10-076



Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                  Page 15
   TIGTA Semiannual Report to Congress

                            INTEGRATING PERFORMANCE AND FINANCIAL
                                         MANAGEMENT

                        Improving government performance is an overall goal of the current
                        Administration. In particular, a clean financial audit is a basic prescription
                        for any well-managed organization. Without accurate and timely financial
                        information, it is not possible to accomplish the President’s Management
                        Agenda to secure the best performance and highest measure of
                        accountability for the American people.

PERFORMANCE             In May 2002, IRS completed a competitive sourcing feasibility study of
MANAGEMENT              the print operation and computer support function, which recommended
                        an Office of Management and Budget Circular A-76 competition. As part
                        of the 1997 Service Center Mainframe Consolidation (SCMC) Business
                        Case, IRS standardized the organizational structure of the Information
                        Systems Division, which includes the print operation and computer
                        support function at the IRS’ 10 campuses;4 standardized mission
                        statements, roles, and responsibilities; and proposed significant staffing
                        reductions. Since then, management has frequently evaluated and
                        modified the organizational structure to accomplish program objectives.

                        However, TIGTA recommended further management actions to increase
                        electronic dissemination of internal reports and improve performance
                        measures, which could result in additional cost savings and increased
                        productivity. IRS management agreed with the recommendations and is
                        taking corrective action. Report Reference No. 2003-20-035

FINANCIAL               IRS is authorized to collect a federal employer tax to fund the
MANAGEMENT              Unemployment Trust Fund (UTF). The Secretary of Treasury pays from
                        the UTF the amount estimated to be expended by the Department of the
                        Treasury, including IRS (which accounts for approximately 99% of the
                        expenses), for this collection service. TIGTA’s review of IRS’ UTF reporting
                        for FY 1999 through the third quarter of FY 2002 showed that reported
                        administrative expenses could not be supported or replicated, and that
                        required reports were not always properly prepared or timely submitted.
                        As a result, TIGTA was not able to substantiate the reported expenses or
                        make any assurances that they were accurate, complete, or consistent.

                        In addition, IRS’ recently adopted method of reporting the expenses,
                        based on a ratio of revenue collected, might not be appropriate.



                        4
                         IRS’ 10 campuses process paper and electronic submissions, correct errors, and forward
                        data to the computing centers for analysis and posting to taxpayer accounts.


Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                             Page 16
   TIGTA Semiannual Report to Congress


                        IRS applied a complexity adjustment to compensate for the significant
                        increase (from $240 million to over $2.8 billion) in the charges to the
                        Federal Old Age and Survivors Insurance (FOASI) Trust Fund, and thus
                        brought the reportable FOASI amount back to what had been historically
                        reported. This complexity adjustment did not have any supporting
                        analysis or an accounting of the true costs to IRS to administer the trust
                        fund taxes. Instead, TIGTA believes that data may exist that could be
                        used to more accurately estimate these expenses.

                        TIGTA recommended that written procedures be developed to ensure the
                        most reasonable and timely means of identifying and reporting all
                        expenses, and that controls be established to ensure that any amounts
                        are reviewed and approved by a senior level IRS executive. Also, IRS
                        needs to ensure that the ability to record and report these expenses is
                        properly implemented as envisioned in the Integrated Financial System
                        development plan. IRS management agreed with the recommendations
                        and is taking corrective action. Report Reference No. 2003-10-054

FEDERAL FINANCIAL       The Federal Financial Management Improvement Act of 1996 (FFMIA) 5
MANAGEMENT              requires agencies to maintain financial management systems that comply
IMPROVEMENT ACT         substantially with federal requirements. If a determination is made that
OF 1996                 an agency does not comply with these requirements, a remediation plan
                        should be established with resources, remedies, and intermediate target
                        dates to bring the agency into substantial compliance. FFMIA further
                        mandates that IGs report to Congress instances and reasons when an
                        agency has not met intermediate target dates.

                        TIGTA reviewed IRS’ remediation plan and did not identify any instances
                        where the IRS did not meet established target dates. However,
                        18 intermediate target dates were extended with acceptable reasons for
                        actions scheduled for completion in Calendar Year (CY) 2002. The
                        IRS properly obtained Office of Management and Budget concurrence for
                        remedial actions with target dates that extend longer than three years
                        from the initial reporting of the financial weakness. In addition, the
                        IRS adequately addressed General Accounting Office recommendations
                        meeting FFMIA criteria in the remediation plan.

                        TIGTA did identify, however, that some resources included in the
                        remediation plan were not verifiable to supporting documentation and
                        that functional areas were not consistently reporting resources shown in
                        the remediation plan. Accordingly, TIGTA recommended that procedures
                        be established that include a process for verifying the resources included


                        5
                            Federal Financial Management Improvement Act of 1996, 31 U.S.C. § 3512.



Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                               Page 17
   TIGTA Semiannual Report to Congress

                        in the IRS’ FFMIA remediation plan and that provide for consistent
                        reporting of such resources by the responsible functions. IRS
                        management agreed with the recommendation and has taken corrective
                        action. Report Reference No. 2003-10-079



                           CUSTOMER SERVICE, RETURNS PROCESSING
                                  AND THE FILING SEASON

                        Providing top quality service to every taxpayer in every transaction is
                        integral to IRS’ modernization plans. There are many ways in which
                        IRS provides customer service. The most direct include walk-in service,
                        toll-free telephone service, access through the IRS’ Internet (Digital Daily),
                        written communications to taxpayers, and accurate and timely tax refunds.
                        Each of these services affects a taxpayer’s ability and desire to voluntarily
                        comply with the tax laws. The tax return filing season also impacts every
                        American taxpayer and is, therefore, always a highly critical program for
                        IRS. In addition to providing customer service to American taxpayers,
                        IRS must coordinate tax law changes, programs, activities, and resources
                        to effectively plan and manage each filing season.

TAXPAYER                Throughout the past year, TIGTA has been reviewing the performance of
ASSISTANCE              the Taxpayer Assistance Centers (TAC) in providing answers to taxpayers’
CENTERS                 questions via walk-in service, based on concerns expressed by
                        Senator Byron Dorgan (D-North Dakota), then Chairman of the
                        Subcommittee on Treasury and General Government. While IRS has
                        made some progress in improving the quality of service at TACs,
                        additional improvements are needed. During July through December
                        2002, auditors asked 332 tax law questions in 83 TACs. TIGTA reported
                        that IRS employees incorrectly answered 92 questions (28%) and
                        referred the auditor to IRS publications to conduct his or her own
                        research for 40 questions (12%). TIGTA has not made any
                        recommendations thus far, but will be issuing a roll-up report that will
                        include recommendations to help improve the accuracy rate. Also, in
                        October 2002, IRS began its own internal quality review visits to TACs to
                        anonymously ask tax law questions.

                        TIGTA auditors generally had positive experiences when they visited TACs
                        and found that the employees were both professional and courteous,
                        providing service within an hour. However, TIGTA auditors found in
                        many instances that the TAC office hours and addresses obtained from
                        IRS toll-free telephones and its internet site did not always match the
                        information posted at the TAC. Report Reference Numbers 2003-40-023;
                        2003-40-024; 2003-40-040; and 2003-40-072

Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                     Page 18
   TIGTA Semiannual Report to Congress

TOLL-FREE               During the 2002 Filing Season,6 taxpayers called IRS almost 76.5 million
TELEPHONE               times. While IRS answered 1.6 million more total calls during the
SYSTEM                  2002 Filing Season than in the prior year, the additional calls answered
                        were through automated services. During the 2002 Filing Season, the
                        Customer Service Representatives (CSR) actually handled 1.73 million
                        fewer calls than in the comparable 2001 period, and the number of calls
                        answered by CSRs was 2.6 million less than IRS planned, thereby
                        increasing the average cost per call answered, in salary alone, by
                        $0.57. This occurred even though IRS received 9 million more calls than
                        in 2001. IRS cited its reallocation of resources to work paper inventory,
                        an increase in transferred calls, and high CSR availability rates as the
                        reasons why the “CSR calls answered” goal was not met. Finally,
                        IRS’ toll-free system is designed to provide callers with automated
                        assistance or, when desired, access to a CSR. IRS’ critical measure for
                        this access is based on the percentage of callers who reach a CSR after
                        selecting that option. However, the measure omits calls where the
                        taxpayer hung up before choosing to enter the call queue to speak with a
                        CSR or before completing an automated service.

                        IRS needs to identify methods to reduce the number of transfers by
                        determining whether there are problems in the routing scripts and
                        whether the CSR call specialization approach needs some modification;
                        identify ways to further refine the forecast accuracy by consulting call
                        center industry experts; achieve greater flexibility to move CSRs from
                        applications with low demand to applications with higher demand; and,
                        for the current CSR Level of Service measure, develop criteria to
                        distinguish between those taxpayers who call and hang up because they
                        clearly did not want a service and those who disconnect for other
                        reasons. IRS management generally agreed with the recommendations
                        and has planned or taken corrective actions.
                        Report Reference No. 2003-30-001

TAX RELIEF              TIGTA reported that IRS had implemented special procedures to process
REFUNDS FOR             tax relief refunds for tax returns filed for deceased victims of the
VICTIMS OF              September 11, 2001 anthrax and Oklahoma City terrorist attacks. The
TERRORIST               program for processing these returns was referred to as the Killed in
ATTACKS                 Terrorist Action (KITA) Program. IRS expected the processing of these
                        highly sensitive KITA returns to be expedited at all times.




                        6
                         The Filing Season is the period from January through mid-April each year during which
                        most individual income tax returns are filed.



Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                              Page 19
   TIGTA Semiannual Report to Congress

                        The KITA Project Office identified approximately 2,900 KITA victims. As
                        of October 31, 2002, IRS had received approximately 4,500 returns for
                        2,400 victims to be processed in the KITA program. Based on
                        information submitted by victims’ families, IRS employees correctly
                        computed tax relief amounts for these returns and issued manual refunds
                        to speed relief to victims’ families. However, IRS did not issue 40% of
                        the tax relief refunds in TIGTA’s sample within the time period set as a
                        goal by KITA program management, or within a time period that TIGTA
                        would consider to be expedited. Also, IRS did not always notify victims’
                        families of the processing results for their tax relief requests. Based on
                        TIGTA’s concerns about processing delays and its suggestions to both
                        clarify expected processing time periods and notify victims’ families of
                        processing results, KITA program management took actions to improve
                        KITA processing during this review.

                        In addition, IRS did not always identify victims’ accounts as KITA
                        accounts on its computer system, and did not always process victims’
                        returns through the KITA program. TIGTA recommended that the KITA
                        project office compare its list of victims to its list of KITA-processed
                        returns and research the accounts with no KITA-processed returns. For
                        the accounts researched, the KITA indicator should be input to those
                        accounts identified as needing it. In addition, for those accounts
                        researched, any returns filed where tax relief was not granted should be
                        corrected. IRS management agreed with the recommendations and is
                        taking corrective action. Report Reference No. 2003-40-080

ELECTRONIC RETURN       Congress has mandated that IRS significantly increase the number of
ORIGINATORS             taxpayers who file their returns electronically, with a goal of having at
                        least 80% of all such returns filed electronically by CY 2007. At present,
                        the majority of tax returns filed in IRS’ electronic filing (e-file) program
                        are through Authorized IRS e-file providers. An Electronic Return
                        Originator (ERO) is the authorized IRS e-file provider who originates the
                        electronic submission of a return to IRS. More than 119,000 EROs are
                        authorized to participate in IRS’ e-file program.

                        TIGTA reported that IRS’ ERO monitoring program could better evaluate,
                        document, and ensure the compliance of EROs. Specifically, IRS has
                        neither established a performance measure to determine the program’s
                        impact on ERO compliance, implemented a planning process that provides
                        for timely training and use of effective case building information, nor
                        developed a risk-based methodology for selecting monitoring visits.
                        Further, program coordinators and monitors have difficulty determining the
                        level of infractions and are not ensuring case documentation is complete.




Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                     Page 20
   TIGTA Semiannual Report to Congress

                        TIGTA recommended that a meaningful performance goal and
                        measurement for the ERO monitoring program be established; ensure
                        follow-up visitations are made; establish a planning process to ensure
                        timely training and case preparation; and enhance the use of the
                        database of EROs. Also, IRS needs to better determine the mix of
                        random and mandatory ERO visits; develop more detailed guidance on
                        sanctions; and improve monitoring case documentation. IRS
                        management agreed with the majority of the recommendations and has
                        taken full or partial corrective actions, but disagreed with the
                        recommendation to establish a goal and method of measuring program
                        effectiveness. Management stated that while the results on specific
                        cases, types of cases or trends could be tracked and measured, it would
                        be impossible to measure the effect on voluntary compliance for all
                        authorized IRS e-file providers. TIGTA is concerned about IRS’ decision
                        not to establish a goal and method for measuring program effectiveness
                        in improving ERO compliance. The President’s Management Agenda
                        includes a requirement to link performance with the budgeting process.
                        Further, the Government Performance and Results Act, the General
                        Accounting Office’s Standards for Internal Control in the Federal
                        Government, and the Office of Management and Budget’s Circular A-123,
                        Management Accountability and Control, 7 all discuss the need to set
                        performance goals and report annually on actual performance compared
                        to goals. TIGTA recognizes that indicators may be difficult to develop,
                        but believes the benefits will far outweigh the costs in linking
                        performance with the budget process, and in allocating resources where
                        they will have the most impact. Report Reference No. 2003-30-039



                                  TAXPAYER PROTECTION AND RIGHTS

                        Implementation of the changes mandated by RRA 98 is intended, among
                        other things, to enhance taxpayer protection and rights. TIGTA is
                        mandated to conduct annual reviews of specific provisions listed in
                        RRA 98 and also conduct reviews of other taxpayer rights issues. Results
                        of mandated reviews completed by TIGTA during this reporting period are
                        listed in Appendix V. Highlights of other significant reviews follow.

SAFEGUARDING            The Chairman of the House Ways and Means Subcommittee on Social
TAXPAYER                Security requested a government-wide review of how federal agencies
INFORMATION             distribute and control Social Security Numbers (SSN). TIGTA conducted
                        its review and, in summary, reported that IRS provided information
                        required by the Privacy Act and established procedures to help ensure
                        third parties, such as federal government agencies and private
                        7
                            Federal Register, Vol. 60, No. 125, June 29, 1995, p.33876 – 33882.


Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                           Page 21
   TIGTA Semiannual Report to Congress

                        contractors, safeguard taxpayer information. In addition, IRS conducts
                        on-site safeguard reviews of the agencies receiving taxpayer information
                        every three years, as required.

                        However, in TIGTA’s opinion, IRS needs to make improvements to
                        safeguard its processes and procedures, which are designed to prevent
                        the potential disclosure of taxpayer information protected by I.R.C.
                        § 6103. In addition, federal and state agency safeguard activity reports
                        and IRS safeguard review reports were not always timely, and procedures
                        for disclosing federal tax information to private contractors were not
                        always effective.

                        TIGTA recommended that the safeguard procedures be evaluated to
                        ensure they address the specific tax data, as well as the security of
                        information shared under I.R.C. § 6103 with regard to federal and state
                        agencies and private contractors. Also, IRS should provide clear guidance
                        to private contractors on the safeguard requirements and their
                        responsibilities. IRS management agreed with the recommendations and
                        is taking corrective action. Report Reference No. 2003-40-022

FRAUDULENT              TIGTA also reported that Fraud Detection Center (FDC) personnel
REFUNDS                 generally provided proper justification for controlling fraudulent or
                        potentially fraudulent refund returns. However, in evaluating IRS’
                        controls placed on certain taxpayer accounts where refund fraud has
                        been suspected, FDC personnel were not always reviewing and
                        reconciling the quarterly control reports and taking timely actions to
                        resolve tax return filings that lacked criminal prosecution potential. As a
                        result, there were unnecessary delays in refunding monies to taxpayers
                        who had legitimate refunds due, and revenue recovery efforts were
                        jeopardized because statutory limitation periods for making civil
                        assessments of tax had expired. Also, although the Director, Refund
                        Crimes had issued several guidance documents pertaining to reviews of
                        the quarterly control reports and procedures for resolving certain types of
                        fraudulent returns, there were no reviews performed to ensure the FDCs
                        were complying with established procedures. In TIGTA’s opinion, these
                        reviews are an important management tool for ensuring program
                        effectiveness and compliance with procedures.

                        TIGTA estimated that more than 10,000 tax return filings with credits
                        totaling more than $26 million have been subjected to year-long delays by
                        IRS. Although most of the $26 million probably resulted from fraudulent
                        refund claims, it is still important that the FDCs take timely action to
                        resolve the accounts to enforce IRS’ commitment to promptly apply the tax
                        law with integrity and fairness to all. TIGTA also identified more than
                        $1.5 million in refunds that were erroneously issued for 24 tax return filings
                        where the statutory period for making civil assessments of tax had expired,


Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                     Page 22
   TIGTA Semiannual Report to Congress

                        thereby preventing recovery of these erroneously refunded monies. To
                        improve the process for monitoring Criminal Investigation (CI) refund
                        controls, TIGTA recommended that IRS consider providing future control
                        report listings to the FDCs electronically, and change the frequency of
                        these listings to twice a year during non-peak processing periods. TIGTA
                        also recommended that CI conduct regular oversight reviews of the
                        process. IRS management agreed with the recommendations and is
                        taking corrective action. Report Reference No. 2003-10-094




Strategic Goal: Improving the Economy, Efficiency
and Effectiveness of Tax Administration                                                Page 23
TIGTA Semiannual Report to Congress




                                Page 24
    TIGTA Semiannual Report to Congress

                TIGTA Strategic Goal:
         Detecting and Deterring Fraud in IRS
              Programs and Operations

                        TIGTA protects the Department of Treasury’s ability to collect revenue
                        owed to the federal government. TIGTA accomplishes this goal by
                        providing comprehensive investigative services focused on three
                        programs: IRS employee integrity; IRS employee and infrastructure
                        security; and external attempts to corrupt federal tax administration.
                        Additionally, TIGTA pursues a variety of proactive initiatives to detect and
                        deter waste, fraud, and abuse relating to federal tax administration. As
                        part of its statutory mission, TIGTA also responds to threats and attacks
                        against IRS personnel, property and IRS data infrastructure.

                         In order to focus investigative resources on its primary program areas,
                         TIGTA developed and implemented a performance model to help it
                         achieve the most return-on-investment for IRS, the Treasury Department,
                         and the American taxpayer.




                                                           Employee Integrity




                                                              TIGTA
                                                              Investigations
                                                              Protect Tax
                                                              Administration




                                          External Attempts to              Employee and
                                          Corrupt Tax Administration        Infrastructure Security



                                                  TIGTA Investigative Performance Model




Strategic Goal: Detecting and Deterring
Fraud in IRS Programs and Operations                                                                  Page 25
     TIGTA Semiannual Report to Congress
                          TIGTA administers its investigative programs through 11 field divisions
                          supported by a Headquarters Operations Division; a Technical and
                          Forensic Support Division; and the Strategic Enforcement Division, a
                          specialized computer investigative operation. TIGTA operates a Special
                          Inquiries and Intelligence Division to conduct certain high profile
                          investigations, procurement fraud investigations and to manage a
                          centralized criminal intelligence (counter-terrorism) program.



                                       IRS EMPLOYEE INTEGRITY

                          IRS employee integrity is the crux of effective and efficient federal tax
                          administration. IRS employee misconduct weakens the public’s trust in
                          the agency and, as a result, impedes effective implementation of the tax
                          laws. Lapses in employee integrity include: bribery; extortion; theft;
                          unauthorized access to and disclosure of confidential taxpayer data;
                          misuse of IRS computer systems; taxpayer abuses; and financial fraud.
                          Additionally, TIGTA promotes employee integrity by conducting proactive
                          and reactive investigations and by administering a program of
                          Integrity/Fraud Awareness presentations to IRS employees and the
                          general public. These presentations educate IRS employees and
                          taxpayers on the ways they can help prevent waste, fraud, and abuse in
                          IRS operations and programs. During the current reporting period,
                          TIGTA made 440 Integrity/Fraud Awareness presentations to more than
                          15,000 IRS employees. Since October 1, 2002, TIGTA received
                          2,271 complaints involving IRS employees.

                          Examples of IRS Employee Integrity cases are:

IRS REVENUE AGENT         Recently, an IRS revenue officer was prosecuted for unauthorized access
PLED GUILTY TO            to taxpayer records contained in the agency’s computer system. TIGTA’s
UNAUTHORIZED              investigation revealed that the officer made improper accesses to the tax
ACCESS TO TAXPAYER        accounts of a friend and a family member. The employee resigned and
RECORDS                   pled guilty to the violations in January 2003.

                          In January 2003, an IRS revenue agent pled guilty to soliciting a
IRS REVENUE AGENT         $200,000 cash bribe from a corporate attorney to reduce the company’s
CONVICTED OF              tax liability. The attorney, in cooperation with TIGTA agents, met with the
SOLICITING A              IRS revenue agent who stated he could reduce the company’s tax liability
$200,000 BRIBE            from as high as $4 million to $15,000 in exchange for the bribe. TIGTA’s
                          Technical Forensic Support Division provided electronic surveillance in
                          support of the case. The revenue agent resigned following arrest.

TWO IRS                   In December 2002, two IRS employees were indicted for their role in the
EMPLOYEES                 attempted destruction of IRS records. This investigation began with a
DESTROY RECORDS           citizen contacting IRS to advise that numerous tax returns and other


 Strategic Goal: Detecting and Deterring
 Fraud in IRS Programs and Operations                                                       Page 26
     TIGTA Semiannual Report to Congress
                          confidential documents were strewn on a city street. TIGTA agents
                          secured several trash bags filled with current tax returns and taxpayer
                          correspondence that had been removed from an IRS processing center by
                          one of the employees. The other employee placed the bags filled with the
                          documents on the curb to be collected as trash. Both employees were
                          terminated from employment. IRS reviewed over 300 taxpayer accounts
                          and determined the total impact to the applicable taxpayers and the
                          agency was approximately $1.2 million.

$132,000                  In January 2003, a former IRS employee signed an agreement to make
RECOVERED FROM            restitution to the government in the amount of $132,000 for wages
FORMER IRS                fraudulently received while working at a business he owned rather than
EMPLOYEE                  at the federal agency. The employee, who falsified his IRS timesheets by
                          failing to take leave for the time spent working at his business, later
                          resigned from IRS.

IRS SPECIAL AGENT         An IRS criminal investigator was sentenced to 30 months imprisonment
SENTENCED FOR             and a $50,000 fine for accepting a bribe of $6,000 to help a taxpayer
BRIBERY                   defeat IRS’ criminal investigation against that taxpayer. In exchange for
                          the bribe, the special agent improperly disclosed grand jury information
                          and tax return information on the target of the investigation. In
                          November 2002, the employee was terminated.

INVESTIGATOR PLEADS       In January 2003, a former IRS criminal investigator pled guilty to
GUILTY TO POSSESSING      possessing child pornography on an office computer. The employee’s
CHILD PORNOGRAPHY         computer had approximately 9,000 digitized photographic still images and
ON IRS COMPUTER           approximately 35 digitized photographic movies of child pornography.
                          The employee resigned from IRS in October 2002.



                              IRS EMPLOYEE AND INFRASTRUCTURE
                                         SECURITY

                          Employee and Infrastructure Security is a critical element in protecting
                          the Treasury Department’s ability to administer the I.R.C. The IRS
                          remains the cornerstone of the federal budget, processing more than
                          228 million tax returns and collecting more than $2.1 trillion annually to
                          fund the government.

                          Threats and assaults against IRS employees, facilities and data
                          infrastructure impede Treasury from effective tax administration.
                          Historically, IRS is a target of those who advocate violence against the
                          federal government. There have been numerous attempts to destroy its
                          buildings by various means. Since TIGTA has the statutory responsibility




 Strategic Goal: Detecting and Deterring
 Fraud in IRS Programs and Operations                                                       Page 27
    TIGTA Semiannual Report to Congress
                         to investigate activities involving threats to IRS personnel and facilities,
                         TIGTA dedicates significant resources to deterring, detecting and
                         investigating any threats from both foreign and domestic sources. In an
                         October 2002 case, TIGTA arrested a taxpayer who mailed a letter
                         threatening an IRS employee with deadly force if a tax lien placed on the
                         taxpayer’s property was not released. This individual was convicted for
                         mailing a threatening communication to IRS.

                         This commitment against threats and assaults includes the operation of a
                         nationwide criminal intelligence program. This Headquarters-directed
                         initiative is designed to coordinate the agency’s investigation of threats,
                         assaults and terrorist acts targeted at IRS. The criminal intelligence unit
                         also coordinates TIGTA’s participation in 57 FBI Joint Terrorism Task
                         Force operations. Through the criminal intelligence program, TIGTA also
                         assists IRS in developing and enhancing security protocol at all IRS
                         facilities in an effort to deter and prevent terrorist attacks and ensure IRS
                         employee safety and infrastructure integrity.

                         In the past six months, TIGTA has completed 400 investigations of
                         verbal or written threats and assaults directed at the IRS and its
                         employees. Over the last few years, the types of threats to which IRS
                         employees are exposed have expanded to include incidents such as
                         the receipt of alleged chemical and biological threats in the mail.
                         Since the terrorist attacks of September 11, 2001, TIGTA has
                         investigated a total of 70 cases involving suspected biological or
                         chemical material received or identified at IRS facilities. TIGTA
                         vigorously investigates hoax mailings. To date, none of these
                         incidents have involved life-threatening substances, although each
                         caused significant and costly disruption to IRS operations.

                         Increasingly, anti-government groups are attempting to undermine the
                         tax system by exploiting cyber-tools as weapons. Through the operation
                         of its Strategic Enforcement Division (SED), TIGTA works with IRS to
                         utilize a cadre of dedicated computer specialists and criminal investigators
                         who rapidly respond to computer intrusion incidents, investigate IRS
                         network problems when indicators of intentional disruption are present,
                         and conduct recurring systems penetration tests to detect new
                         vulnerabilities. Since October 1, 2002, TIGTA SED special agents and
                         computer specialists have conducted 9 computer security reviews/tests
                         and 18 criminal investigations in areas where security potentially could be
                         compromised.




Strategic Goal: Detecting and Deterring
Fraud in IRS Programs and Operations                                                        Page 28
     TIGTA Semiannual Report to Congress
                          Examples of Employee and Infrastructure Security cases are:

TRIAL DEFENDANT           In January 2003, a defendant on trial for tax evasion and conspiracy to
ASSAULTS IRS AGENT        defraud the U.S. government was sentenced to 14 months imprisonment.
AND DOJ                   An IRS Criminal Investigation special agent reported that the defendant
PROSECUTOR                assaulted him and a Department of Justice prosecutor in the courtroom.
                          On the basis of TIGTA’s investigation of the two assaults, following the
                          trial and conviction, a judge revoked the assaulting defendant’s
                          supervised release.

TAXPAYER SENTENCED        In October 2002, a taxpayer was sentenced to 30 days custody as a
FOR THREATENING A         condition of a two-year term of probation for making threats against IRS.
GUNFIGHT                  In April 2002, an IRS revenue officer reported to TIGTA the receipt of a
                          tax form from a taxpayer containing threats of a gunfight if anybody tried
                          to seize his property. The taxpayer was subsequently indicted and found
                          guilty of corrupt interference of a government official. Special probation
                          conditions include compliance with the money owed to IRS, filing of all
                          back tax returns to IRS, no possession of firearms, and 200 hours of
                          community service.

TIGTA ASSESSES            On January 25, 2003, numerous sources reported on the Internet a
VULNERABILITY TO          dramatic increase in hostile network traffic. Within hours the traffic
“MS-SQL                   caused a significant slowing throughout the Internet. The cause was
SLAMMER” WORM             identified as a self-replicating worm dubbed “MS-SQL Slammer,” which
                          took advantage of a known vulnerability in Microsoft SQL servers. Within
                          five hours, TIGTA SED agents initiated a vulnerability assessment of
                          IRS’ network to identify Microsoft SQL servers vulnerable to the virus.
                          Several systems were identified and the results were provided to
                          IRS Office of Cyber Security (CSIRC) for immediate action. Subsequently,
                          CSIRC identified numerous vulnerable unpatched servers, and system
                          owners were instructed to apply the appropriate patches to their servers.
                          This coordinated effort resulted in protection of IRS systems as the
                          Slammer worm did not enter the agency’s enterprise network.

TIGTA PROTECTS            On October 7, 2002, TIGTA SED agents completed a network scan of
IRS NETWORK FROM          IRS’ enterprise network to determine if it was compromised by the
“W32 BUGBEAR”             “W32 Bugbear” virus, a Microsoft Outlook mass-mailing worm that had
VIRUS                     the capability of creating a backdoor vulnerability to the infected
                          computer. Additionally, it had the insidious capability of terminating or
                          disabling the detection and containment processes of various anti-virus
                          programs. The SED scan identified several computer systems potentially
                          vulnerable to the “W32 Bugbear” virus. A list of the potentially vulnerable
                          systems was provided to CSIRC so that IRS computer systems could be
                          protected from this external attack. CSIRC subsequently confirmed that
                          this virus infected no IRS systems.




 Strategic Goal: Detecting and Deterring
 Fraud in IRS Programs and Operations                                                      Page 29
     TIGTA Semiannual Report to Congress

                             EXTERNAL ATTEMPTS TO CORRUPT TAX
                                     ADMINISTRATION

                          TIGTA is dedicated to investigating external attempts to corrupt or
                          interfere with the administration of Internal Revenue laws. External
                          attempts to corrupt tax administration include bribes offered by taxpayers
                          to compromise IRS employees; the manipulation of IRS systems and
                          programs through the use of bogus liens and IRS financial reporting
                          instruments; identity theft; tax refund theft; and other crimes that use
                          IRS as a means to perpetrate criminal activity. External attempts to
                          corrupt tax administration inhibit the Treasury’s ability to collect revenue
                          and undermine the public’s confidence in fair and effective tax
                          administration. TIGTA conducted investigations of schemes involving
                          Employer Identification Numbers (EIN); bribery of IRS officials; the use of
                          fraudulent IRS documentation; impersonation of IRS officials; and theft of
                          taxpayer refunds during this reporting period.

                          With IRS increasing its effort to collect taxes from delinquent taxpayers,
                          as well as taxpayers with offshore bank accounts, the environment is ripe
                          for increased attempts to bribe IRS employees involved in those collection
                          activities. Since October 1, 2002, TIGTA has initiated 31 investigations
                          into bribery by non-IRS employees. In addition, TIGTA conducted
                          232 investigations of attempts to manipulate or corrupt IRS systems and
                          operations, and 600 investigations into fraud and other related activities.

                          To further its ability to investigate criminal acts designed to corrupt tax
                          administration, TIGTA operates a Technical and Forensic Support Division
                          composed of the Technical Services Section and a Forensic Science
                          Laboratory. Both Technical Services and the Laboratory provide technical
                          expertise throughout the development and adjudication process of
                          investigations. During this reporting period, the Forensic Science
                          Laboratory conducted 183 forensic examinations while the Technical
                          Services Section provided electronic and surveillance support in
                          147 investigations.

                          Examples of External Attempts to Corrupt Tax Administration cases are:

INDIVIDUAL                In January 2003, an identity theft scheme promoter was sentenced to
SENTENCED IN              32 months in prison and ordered to pay approximately $306,000 in
EIN SCHEME                restitution for conspiracy, identity theft and social security fraud. The
                          promoter assisted individuals with unfavorable credit ratings in obtaining
                          IRS issued Employer Identification Numbers (EIN), and in applying for
                          government-insured home mortgage loans using the EINs as SSNs. The
                          promoter also prepared fictitious federal income tax returns for
                          submission with the loan applications. Twenty-three other individuals


 Strategic Goal: Detecting and Deterring
 Fraud in IRS Programs and Operations                                                       Page 30
     TIGTA Semiannual Report to Congress

                          were charged for their roles in the scheme, including a realtor who was
                          involved in the fraudulent home purchases.

IDENTITY THEFT RING       In February 2003, a criminal complaint charged 19 individuals with
NETS $7 MILLION IN        conspiracy to file false claims against the United States. The investigation
FRAUDULENT TAX            began when bank officials notified TIGTA that tax refund checks were
REFUNDS                   deposited in a tax preparer’s bank account. TIGTA agents subsequently
                          arrested the tax preparer for the theft and negotiation of stolen IRS income
                          tax refund checks. Further investigation disclosed the tax preparer, with
                          co-conspirators, engaged in the filing of numerous fraudulent income tax
                          returns using stolen SSNs, resulting in millions of dollars in IRS refunds. In
                          October 2002, the tax preparer pled guilty to conspiracy to file false claims
                          against the United States.

PAIR GUILTY IN            In December 2002, two individuals were found guilty of conspiring to
FICTITIOUS                negotiate fictitious “Notes” as payment for tax liabilities. This investigation
OBLIGATIONS SCHEME        began when an IRS employee contacted TIGTA agents after being
                          approached by two taxpayers presenting $150,000 in purported "Notes" to
                          pay off a tax liability. One taxpayer, an insurance salesman, acknowledged
                          printing these notes on a personal computer, and the other taxpayer
                          claimed to be a "commercial attorney" involved in the production of the
                          documents. IRS Criminal Investigation was conducting an investigation
                          relating to numerous similar fictitious obligations being mailed to IRS
                          Service Centers as payment for taxes. In June 2001, the insurance
                          salesman returned to the IRS office and attempted to pay a different
                          taxpayer's $20,000 tax liability using the “Notes.” He admitted receiving
                          $5,000 from the taxpayer in exchange for the $20,000 in “Notes.” In
                          September 2002, a federal grand jury issued indictments charging the
                          insurance salesman with 21 counts of conspiracy, unlawful manufacture
                          and passing of fictitious obligations, and mail fraud. The “commercial
                          attorney” was charged with 15 counts of conspiracy and unlawful
                          manufacture and passing of fictitious obligations. A federal grand jury
                          found the pair guilty in December 2002.




                                               Fictitious Note



 Strategic Goal: Detecting and Deterring
 Fraud in IRS Programs and Operations                                                          Page 31
  TIGTA Semiannual Report to Congress


                          Congressional Testimony
                     In addition to TIGTA’s audit and investigative work, the Acting IG, along
                     with the Inspector General for Treasury, testified on February 21, 2003
                     before the U. S. Congress, House Appropriations Transportation,
                     Treasury, and Independent Agencies Subcommittee. The purpose of the
                     hearing was to discuss the potential consolidation of these two Inspector
                     General offices and challenges facing IRS.




                                               Kudos
                     Each year the President recognizes a small percentage of the Senior
                     Executive Service for their ability to lead a Government that delivers great
                     service, achieves results and continually pushes to get the job done more
                     effectively and efficiently. In 2002, TIGTA’s former Assistant Inspector
                     General for Audit (Information Systems), Scott Wilson, was awarded the
                     Presidential Rank Award for Meritorious Service for his achievements
                     within the Audit and Information Systems community.

   Scott Wilson




Congressional Testimony and Kudos                                                      Page 32
  TIGTA Semiannual Report to Congress

      Appendix I – Audit Statistical Reports

                        Audit Reports With Questioned Costs

    One audit report with questioned costs was issued during this semiannual reporting period.1
    The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of a
    provision of a law, regulation, contract, or other requirement governing the expenditure of funds; (2) a
    finding that, at the time of the audit, such cost is not supported by adequate documentation
    (“unsupported cost”); or (3) a finding that expenditure of funds for the intended purpose is unnecessary
    or unreasonable. The term “disallowed cost” means a questioned cost that management, in a
    management decision, has sustained or agreed should not be charged to the government.

       Reports With Questioned Costs                    Number            Questioned       Unsupported
                 (10/1/02 – 3/31/03)                      of                 Costs2            Costs
                   Report Category                      Reports         (In Thousands)    (In Thousands)
      For which no management decision had
     been made by the beginning of the
     reporting period                                              3             $1,675               $0
     Which were issued during the reporting
     period                                                        1             $4,719               $0

     Subtotals (Item 1 plus Item 2)                                4             $6,394               $0


     For which a management decision was
     made during the reporting period
         - Dollar value of disallowed costs                        3             $1,118               $0
         - Dollar value of costs not disallowed                    1                 $3               $0


     For which no management decision had
     been made by the end of the reporting
     period (Item 3 minus Item 4)                                  2             $5,273               $0

     For which no management decision was
     made within six months of report issuance                     1              $573                $0
          1
              See Appendix IV for identification of audit reports involved.
          2
              “Questioned Costs” include “Unsupported Costs.”




Appendix I – Audit Statistical Reports                                                              Page 33
  TIGTA Semiannual Report to Congress

      Reports With Recommendations That Funds Be Put to
                         Better Use
    Six reports with recommendations that funds be put to better use were issued during this
    semiannual reporting period.1
    The term “recommendation that funds be put to better use” means a recommendation that funds
    could be used more efficiently if management took actions to implement and complete the
    recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs or
    operations; (3) costs not incurred by implementing recommended improvements related to
    operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract
    agreements; or (5) any other savings which are specifically identified. The term “management
    decision” means the evaluation by management of the findings and recommendations included in
    an audit report and the issuance of a final decision concerning its response to such findings and
    recommendations, including actions concluded to be necessary.



        Reports With Recommendations That
            Funds Be Put to Better Use                                   Number
                      (10/1/02 – 3/31/02)                                  of          Amount
                        Report Category                                  Reports   (In Thousands)

        For which no management decision has been
        made by the beginning of the reporting period                          0               $0


        Which were issued during the reporting period                          6           $38,597


        Subtotals (Item 1 plus Item 2)                                         6           $38,597

        For which a management decision was made
        during the reporting period

        Dollar value of recommendations that were
        agreed to by management
             - Based on proposed management action                             2              $307
             - Based on proposed legislative action                            1            $3,000
        Dollar value of recommendations that were not
        agreed to by management                                                2           $33,050

        For which no management decision has been
        made by the end of the reporting period
        (Item 3 minus Item 4)                                                  1            $2,240


        For which no management decision was made
        within six months of issuance                                          0                0
         1
             See Appendix IV for identification of audit reports involved.




Appendix I – Audit Statistical Reports                                                         Page 34
  TIGTA Semiannual Report to Congress

            Reports With Additional Quantifiable Impact on
                         Tax Administration
    In addition to questioned costs and funds put to better use, the Office of Audit has identified
    additional measures that demonstrate the value of audit recommendations on tax administration
    and business operations. These issues are of interest to the IRS and Treasury executives, the
    Congress, and the taxpaying public, and are expressed in quantifiable terms to provide further
    insights to the value and potential impact of the Office of Audit’s products and services. Including
    this information also advances adherence to the intent and spirit of GPRA.

    Definitions of these additional measures are:

                •       Taxpayer Rights and Entitlements at Risk: The protection of due
                        process (rights) that is granted to taxpayers by law, regulation, or IRS policies
                        and procedures. These rights most commonly arise in the performance of
                        filing tax returns, paying delinquent taxes, and examining the accuracy of tax
                        liabilities. The acceptance of claims for and issuance of refunds (entitlements)
                        are also included in this category, relating to instances when taxpayers have a
                        legitimate assertion to overpayments of tax.

                •       Reduction of Burden on Taxpayers: Decreases by individuals or
                        businesses in the need for, frequency of, or time spent on contacts, record
                        keeping, preparation, or costs to comply with tax laws, regulations, and
                        IRS policies and procedures.

                •       Increased Revenue: Assessment or collection of additional taxes.

                •       Revenue Protection: Proper denial of claims for refund, including
                        recommendations that prevent erroneous refunds or efforts to defraud the
                        tax system.

                •       Taxpayer Privacy and Security: Protection of taxpayer financial and
                        account information (privacy). Processes and programs that provide
                        protection of tax administration, account information, and organizational
                        assets (security).

                •       Protection of Resources: Safeguarding human and capital assets, used
                        by or in the custody of the organization, from inadvertent or malicious
                        injury, theft, destruction, loss, misuse, overpayment, or degradation. This
                        measure will often be expressed as a value of the entity or program
                        affected by the issue(s) described in the audit report.

                •       Reliability of Management Information: Ensuring the accuracy,
                        validity, relevance, and integrity of data, including the sources of data and
                        the applications and processing thereof, used by the organization to plan,
                        monitor, and report on its financial and operational activities. This measure
                        will often be expressed as an absolute value (i.e., without regard to whether
                        a number is positive or negative) of overstatements or understatements of
                        amounts recorded on the organization’s documents or systems.


Appendix I – Audit Statistical Reports                                                               Page 35
  TIGTA Semiannual Report to Congress

         Reports With Additional Quantifiable Impact on Tax
                     Administration (continued)
    The number of taxpayer accounts and dollar values shown in this chart were derived from analyses
    of historical data, and are thus considered potential barometers of the impact of audit
    recommendations. Actual results will vary depending on the timing and extent of management’s
    implementation of the corresponding corrective actions, and the number of accounts or subsequent
    business activities impacted from the dates of implementation. Also, a report may have issues that
    impact more than one outcome measure category.


  Reports With Additional
  Quantifiable Impact on
    Tax Administration
        (10/1/02 – 3/31/03)         Number of         Number of         Number
        Outcome Measure             Reports in        Taxpayer            of           Dollar Value
            Category                Category1         Accounts           Hours        (In Thousands)        Other4
  Taxpayer Rights and                                                                                               5
  Entitlements at Risk                           7        1,462,1572                             $25,844
  Reduction of Burden on                                                                                            6
  Taxpayers                                      4         5,900,199                           $312,700


  Increased Revenue                              4             1,550                            $11,4563


  Revenue Protection                             1                                                $1,343
                                                                                                                    7
  Taxpayer Privacy and Security                  2


  Protection of Resources                        0
                                                                                                                    8
  Reliability of Management
  Information                                    4               367                                $339
    1
      See Appendix IV for identification of audit reports involved.
    2
      One report (Reference No. 2003-10-077), in which the Failure to Pay Penalty was not always reduced as
       appropriate or calculated accurately and consistently for 1,460,914 accounts, could include multiple accounts
       for some taxpayers.
    3
      In one report (Reference No. 2003-30-041) IRS management agreed with the recommendations, but not with
       the revenue impact of $9.8 million.
    4
      Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of
       hours, and dollar value. These outcome measures are described in the footnotes, below.
    5
      Other measures of taxpayer rights and entitlements consist of 4,610 returns in which penalties should not be
       assessed when interest is waived, 14,695 Notices of Federal Liens with potential violations of taxpayer rights,
       and 11,530 tax return periods in which there were unnecessary delays in resolving tax accounts or issuing
       legitimate refunds.
    6
      Other measures of taxpayer burden, consisting of 16% of questions, asked via the Internet, did not receive a
       response.
    7
      Other measures of taxpayer privacy and security consist of 1.1 million improper disclosures of taxpayer
       identification numbers and 2,166 contractors not in the Security Entry Tracking System.
    8
      Other measures of reliability of information consist of 27 budget transfers, totaling $12.7 million, processed
       without evidence of managerial approval.



Appendix I – Audit Statistical Reports                                                                      Page 36
  TIGTA Semiannual Report to Congress

                                   Prior Period Reports
    During this reporting period, the IRS did not provide TIGTA with the value of questioned costs for
    any reports issued before October 1, 2002, for which the amount of questioned costs could not be
    determined at the time the reports were issued.




Appendix I – Audit Statistical Reports                                                         Page 37
TIGTA Semiannual Report to Congress




                               Page 38
  TIGTA Semiannual Report to Congress

    Appendix II – Investigations Statistical
                   Reports

                             Investigative Results
                        October 1, 2002 – March 31, 2003




                                   Investigations Opened and Closed


                          Total Investigations Opened                 2,487


                          Total Investigations Closed                 2,489




                                       Financial Accomplishments



                    Embezzlement/Theft Funds Recovered                $8,003,916



                    Court Ordered Fines, Penalties and Restitution    $8,297,349


                    Out-of-Court Settlements                                  $0




Appendix II – Investigations Statistical Reports                                   Page 39
  TIGTA Semiannual Report to Congress

                             Investigative Results
                 October 1, 2002 – March 31, 2003 (continued)


                                     Status of Closed Criminal Investigations

                                                                                 Non-
            Criminal Referrals1                         Employee               Employee                 TOTAL
            Referred – Accepted for
            Prosecution                                            24                   233                   257
            Referred – Declined for
            Prosecution                                           360                   395                   755
            Referred - Pending Prosecution
            Decision                                               35                   148                   183

            TOTAL CRIMINAL REFERRALS                             419                    776                1,195

                               No Referrals                      683                    727                1,410
        1
            Criminal referrals include both federal and state dispositions.




                                                Criminal Dispositions2


                                                            Employee          Non-Employee                TOTAL

        Guilty                                                          20                    88               108

        Nolo-Contendere                                                  1                     0                  1

        Pre-trial Diversion                                              3                    13                 16

        Deferred Prosecution3                                            0                     1                  1

        Not Guilty                                                       0                     0                  0

        Dismissed4                                                       4                     5                  9

        TOTAL CRIMINAL DISPOSITIONS                                     28                  107                135

        2
          Final criminal dispositions during the reporting period. This data may pertain to investigations referred
        criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in
        the Status of Closed Criminal Investigations table.
        3
          Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
        complies with certain conditions imposed by the court. Upon defendant’s completion of the conditions,
        the court dismisses the case. If the defendant fails to fully comply, the court reinstates prosecution of
        the charge.
        4
          Court dismissed charges.


Appendix II – Investigations Statistical Reports                                                               Page 40
  TIGTA Semiannual Report to Congress

                           Investigative Results
               October 1, 2002 – March 31, 2003 (continued)


                    Administrative Disposition on Closed TIGTA Investigations5


          Removed, Terminated or Other                                                                 123

          Suspended/Reduction in Grade                                                                   71

          Oral or Written Reprimand/Admonishment                                                       123

          Closed – No Action Taken                                                                     245

          Clearance Letter Issued                                                                      136

          Employee Resigned Prior to Adjudication                                                        41

                                    TOTAL ADMINISTRATIVE DISPOSITIONS                                  739
    5
      Final administrative dispositions during the reporting period. This data may pertain to investigations referred
    administratively in prior reporting periods and does not necessarily relate to the investigations closed in the
    Investigations Open and Closed table.




Appendix II – Investigations Statistical Reports                                                              Page 41
  TIGTA Semiannual Report to Congress

                             Investigative Results
                 October 1, 2002 – March 31, 2003 (continued)

    The following tables summarize the number of complaints received by TIGTA and the status of
    the complaints.



                                  Complaints/Allegations Received by TIGTA


                 Complaints Against IRS Employees                                                  2,271

                 Complaints Against Non-Employees                                                  1,726

                 Number of Complaints/Allegations                                                  3,997




                           Status of Complaints/Allegations Received by TIGTA



                             Investigation Initiated                                      1,673

                             In Process Within TIGTA6                                       174

                             Referred to the IRS for Action                                 236

                             Referred to the IRS for Information Only                     1,011

                             Referred to a Non-IRS Entity7                                   19

                             Closed With No Referral                                        821


                             Closed With All Actions Completed                               63

                                                   TOTAL COMPLAINTS                      3,997
        6
            Complaints for which final determination had not been made at the end of the reporting period.
        7
            A non-IRS entity includes other law enforcement entities or federal agencies.

        Note: IRS made 59 referrals to TIGTA that would more appropriately be handled by IRS and, therefore,
        were returned to IRS. These are not included in the total complaints shown above.




Appendix II – Investigations Statistical Reports                                                             Page 42
  TIGTA Semiannual Report to Congress

         Allegations of Misconduct Against IRS Employees

    The following three tables consist of allegations of misconduct against individual IRS employees,
    which were recorded, in the IRS Automated Labor and Employee Relations Tracking System
    (ALERTS). Employee misconduct cases investigated by TIGTA have been extracted and reported
    on the previous two pages. IRS management conducted the inquiries into the cases reflected in
    these tables.




                         Allegations of Employee Misconduct Investigated by
                                            IRS Management


                                                                   Case Type


                                                                    Employee
                                                                      Tax
                                          Administrative 8           Matter 9               Total


        Inventory on October 1, 2002                        709                885                  1,594

        Add: Cases Received                               1,647              1,156                  2,803

        Less: Cases Closed                              (1,615)            (1,092)                 (2,707)

        Duplicates                                         (15)              (146)                      (161)

        Not Misconduct                                     (14)                (0)                       (14)


        Total Closures                                  (1,644)            (1,238)                 (2,882)

        Inventory on March 31, 2003                         712                803                  1,515

    8
      Administrative - Any matter involving an employee in which management conducted an inquiry
    into alleged misconduct.
    9
     Employee Tax Matter - Any conduct matter that becomes a matter of official interest involving an
    employee's tax compliance.




Appendix II – Investigations Statistical Reports                                                           Page 43
  TIGTA Semiannual Report to Congress


         Allegations of Misconduct Against IRS Employees
                            (continued)



                    Disposition of Employee Misconduct Cases Investigated by
                                        IRS Management




                                                                Employee Tax
                   Disposition                Administrative      Matter           Total

       Removal                                             73                  6            79

       Separation of Probationary Employees               228                  4           232

       Separation of Temporary Employees                   16                  2            18

       Resignation/Retirement                              89              27              116

       Suspensions                                        136              31              167

       Reprimands                                         262             316              578

       Counseling                                         364             477              841

       Alternative Discipline                              55              24               79

       Clearance                                          111                  8           119

       Closed Without Action                              245             188              433

       Forwarded to TIGTA                                  10                  0            10

       Not Otherwise Coded                                 26                  9            35
                                    TOTAL               1,615           1,092          2,707




Appendix II – Investigations Statistical Reports                                           Page 44
  TIGTA Semiannual Report to Congress


         Allegations of Misconduct Against IRS Employees
                            (continued)


                            IRS Summary of Substantiated § 1203 Allegations


                  § 1203 Violation                         Removals               Penalty Mitigated


               Seizure Without Approval                                      0                              0

          False Statement Under Oath                                         0                              0

          Constitutional & Civil Rights Issues                               0                              0

          Falsifying or Destroying Records                                   0                              0

          Assault or Battery                                                 0                              0

          Retaliate or Harass                                                0                              0

          Misuse of 6103                                                     0                              0

          Failure to File Federal Tax Return                                 5                             22

          Understatement of Federal Tax Liability                            4                             12

          Threat to Audit for Personal Gain                                  1                              0

                                                 TOTAL                     10                              34

        Note: The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any
        third party appeal.

        Source: IRS Automated Labor and Employee Relations Tracking System (ALERTS) and
        § 1203 Review Board records.




Appendix II – Investigations Statistical Reports                                                           Page 45
TIGTA Semiannual Report to Congress




                               Page 46
  TIGTA Semiannual Report to Congress



          Appendix III – Statistical Reports –
                        Others

            Audit Reports With Significant Unimplemented
                          Corrective Actions

   The Inspector General Act of 1978 requires identification of significant recommendations described
   in previous semiannual reports on which corrective actions have not been completed. The
   following list is based on information from the IRS Office of Management Control’s automated
   tracking system maintained by Treasury management officials.



                               Projected             Report Title and Recommendation Summary
Reference                     Completion           (F = Finding Number, R = Recommendation Number,
 Number         Issued           Date                              P = Plan Number)

 093602          April                          The Internal Revenue Service Needs To Improve
                 1999                           Treatment of Taxpayers During Office Audits

                                 04/15/03       F-1, R-3, P-2. Require a separation of duties among auditors who
                                                identify Midwest Automated Compliance System (MACS) returns
                                                with potential tax changes, auditors who select MACS returns to
                                                be audited, and auditors who conduct the examinations.
                                 10/01/05       F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the
                                                MACS Development Center to district offices are properly
                                                accounted for and secured.
                                 05/15/03       F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide
                                                specific guidance for conducting correspondence audits in district
                                                office settings.




Appendix III – Statistical Reports – Others                                                       Page 47
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

  093009          June                         Review of the Electronic Fraud Detection System
                  1999
                                  01/01/04     F-2, R-1, P-3. Program the Electronic Fraud Detection System
                                               (EFDS) application audit trail to record all accesses to taxpayer
                                               data (including access to prior year records, records assigned to
                                               specific tax examiners, and records assigned to other service
                                               center sites).
                                  01/01/04     F-2, R-2, P-3. Design an audit trail application to record access to
                                               taxpayer data through secondary sources such as the database
                                               administrator, system query tools, or contract vendors.
                                  01/01/04     F-3, R-1, P-3. The EFDS Project Office should work with EFDS
                                               developers to ensure that the following programming changes are
                                               made: The EFDS application audit reports should be changed to
                                               include a date range field and service center site field where
                                               applicable.
                                  01/01/04     F-3, R-4, P-3. An assessment should be completed and take into
                                               consideration the audit trail issues referred to in the Memorandum
                                               of Understanding to improve the usefulness of the EFDS
                                               application audit trail.

1999-20-063      August                        The General Controls Environment Over the Internal
                  1999                         Revenue Service’s Unisys 2200 Systems Can Be Improved

                                  05/01/03     F-2, R-1, P-1. Standardize control settings for files common to the
                                               Unisys 2200 production mainframes.

2000-30-015     December                       Consolidated Report on Opportunities for the Internal
                  1999                         Revenue Service to Improve Service to Business
                                               Taxpayers

                                  01/01/04     F-2, R-1, P-1. Expand the current Federal Tax Deposits alert
                                               reengineering effort to
                                               re-evaluate the cost effectiveness of the Program.

2000-10-033      February                      The Internal Revenue Service Can Further Reduce the
                   2000                        Burden on Taxpayers Who Disagree With Proposed
                                               Assessments

                                  06/15/03     F-1, R-1, P-1. Send letters of proposed changes (30-Day Report)
                                               via certified mail, with return receipt requested, when taxpayers
                                               do not respond to the initial contact letter.




 Appendix III – Statistical Reports – Others                                                       Page 48
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

2000-30-059       March                        The Internal Revenue Service Can Improve the Estate Tax
                  2000                         Collection Process

                                  07/15/03     F-1, R-1, P-1. Assign the responsibility for determining whether a
                                               bond or tax lien should be secured to the service center
                                               employees who process the installment agreements, instead of to
                                               the district offices.
                                  07/01/03     F-2, R-2, P-1. Develop procedures to periodically reconcile tax
                                               liens on the Automated Lien System (ALS) with information shown
                                               on the taxpayer accounts.
                                  11/01/03     F-2, R-3, P-1. Clarify procedures to employees that all estate tax
                                               liens should be recorded on the ALS.
                                  03/15/04     F-3, R-4, P-1. Coordinate to develop a procedure to identify
                                               accounts with multiple assessments and collection statute dates to
                                               ensure partial abatements occur when the earliest Collection
                                               Statute Expiration Date is reached.

2000-20-094       June                         A Comprehensive Program for Preventing and Detecting
                  2000                         Computer Viruses Is Needed

                                  06/01/03     F-2, R-1, P-1. Develop and implement IRS-wide procedures
                                               detailing the frequency and steps to be followed for reliably
                                               updating anti-virus software on both networked and portable
                                               notebook computers.
                                  01/02/04     F-2, R-2, P-1. Establish controls for ensuring all updates have
                                               been successfully accomplished.
                                  01/01/04     F-3, R-1, P-1. Develop a system for gathering information to help
                                               analyze and monitor the effectiveness of the program’s virus
                                               detection and prevention activities.

2000-30-120      August                        Expanding the Electronic Tax Law Assistance Program
                  2000
                                  04/15/04     F-1, R-1, P-1. To meet its Electronic Tax Administration goals, the
                                               IRS needs to redesign the Electronic Tax Law Assistance (ETLA)
                                               program to leverage technology that will provide enhanced access
                                               to tax information, maximize efficiency, and improve electronic
                                               customer service.
                                  10/01/03     F-2, R-1, P-1. To effectively administer the rapid growth of
                                               taxpayer demand, economically use resources, and design future
                                               enhancements of the program, IRS needs to fully commit to the
                                               ETLA program by converting it from a long-term research project
                                               to a fully supported independent function.




 Appendix III – Statistical Reports – Others                                                      Page 49
  TIGTA Semiannual Report to Congress


                                Projected            Report Title and Recommendation Summary
Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                             P = Plan Number)

2000-30-130     September                       Opportunities Exist to Enhance the International Field
                  2000                          Assistance Specialization Program

                                  10/01/03      F-2, R-1, P-1. Improve the management information system by
                                                linking the International Field Assistance Specialization Program
                                                (IFASP) indicator to specific issues listed in the International Case
                                                Management System.
                                  06/01/03      F-2, R-2, P-2. Ensure international examiners gain greater access
                                                to the IRS’ Intranet so that the IFASP can accumulate and
                                                disseminate more information electronically, including an
                                                electronic referral form for IFASP assistance.

2000-30-154     September                       Significant Improvements Are Needed in Processing Gift
                  2000                          Tax Payments and Associated Extensions to File

                                  01/01/04      F-1, R-1, P-1. Require that all balance due notices generated for
                                                gift tax accounts be reviewed. Tax examiners should be instructed
                                                to review the taxpayers’ corresponding individual income tax and
                                                gift tax accounts to determine if the taxpayers’ gift tax payments
                                                and extensions were correctly processed.

2000-30-162     September                       The Internal Revenue Service Needs to Better Address
                  2000                          Bankruptcy Automatic Stay Violations

                                  07/01/03      F-1, R-2, P-1. Provide additional computer programming
                                                enhancements to improve the value of litigation transcripts.
                                P-1: 07/01/03   F-2, R-1, P-1, P-2. Request that the Automated Insolvency
                                P-2: 08/15/03   System be reprogrammed so that the actual receipt date of the
                                                case can be input into the system to provide management with
                                                more accurate data on timeliness of input of new case
                                                information.
                                P-1: 07/01/03   F-2, R-2, P-1, P-2. Ensure that all employees review the
                                P-2: 08/15/03   Potentially Invalid Taxpayer report and resolve all cases promptly
                                                to ensure timely posting of the bankruptcy to the taxpayer’s
                                                account.

2001-30-014     November                        The Internal Revenue Service Does Not Effectively Use the
                  2000                          Trust Fund Recovery Penalty as a Collection Enforcement
                                                Tool

                                  12/15/03      F-1, R-5, P-1. Make programming changes to the Automated
                                                Trust Fund Recovery System to ensure that delinquent tax returns
                                                are addressed when making trust fund recovery penalty
                                                calculations.




 Appendix III – Statistical Reports – Others                                                         Page 50
  TIGTA Semiannual Report to Congress


                                Projected            Report Title and Recommendation Summary
Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                             P = Plan Number)

2001-10-027    January 2001                     Improved Case Monitoring and Taxpayer Awareness
                                                Activities Can Enhance the Effectiveness of the Tax
                                                Practitioner Disciplinary Proceedings Program

                                  03/31/03      F-1, R-1, P-1. Upgrade the automated case management system
                                                to provide more timely and accurate data on case activities and
                                                the use of program resources.


2001-20-043      February                       Electronic Signature Initiatives Could Be Better Defined
                   2001                         and Evaluated

                                  10/15/03      F-1, R-1, P-1. Finalize IRS requirements for the use of Personal
                                                Identification Numbers as alternative signatures for electronically
                                                filed returns based on evolving guidance and the draft IRS
                                                authentication security policy and implementation guide.
                                  11/15/03      F-1, R-2, P-1. Ensure that all operational alternative signature
                                                initiatives comply with the requirements.

2001-30-052       March                         Program Improvements Are Needed to Encourage
                  2001                          Taxpayer Compliance in Reporting Foreign Sourced
                                                Income

                                  01/01/04      F-1, R-1, P-1. Ensure the prior recommendations are
                                                implemented. Establishing a formal program with goals,
                                                objectives, processes and measures could help ensure that
                                                sufficient management attention is devoted to improving the use
                                                of the Routine Exchange of Information Program for compliance.
                                  01/01/04      F-2, R-1, P-1. Identify the highest risk foreign sourced income
                                                documents and use them to coordinate with tax treaty partners to
                                                positively identify the U.S. taxpayers involved.
                                P-1: 01/01/07   F-3, R-1, P-1, P-2. Improve systems that process data the IRS
                                P-2: 01/01/07   receives on foreign sourced income.

2001-30-099       June                          Management Advisory Report: The Internal Revenue
                  2001                          Service Could Reduce the Number of Business Tax Returns
                                                Destroyed Because of Missing Information

                                P-2: 07/01/03   F-1, R-1, P-2, P-3. Make necessary modifications to tax forms and
                                P-3: 07/01/03   instructions to ensure taxpayers understand that their names,
                                                addresses, and taxpayer identification numbers are required on
                                                both their tax forms and payment vouchers.




 Appendix III – Statistical Reports – Others                                                        Page 51
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

2001-10-103      August                        Improvements Are Needed to Comply With Legal and
                  2001                         Procedural Requirements for Collection Statute Extensions
                                               and Installment Agreements

                                  05/15/03     F-2, R-1, P-1. Develop a comprehensive plan for implementing
                                               the provisions of RRA 98 § 3461(c).
                                  07/01/03     F-4, R-1, P-1. Provide training to applicable IRS employees and
                                               managers on the requirements and the method to compute
                                               installment agreements and collection statute extensions,
                                               consistent with the law and IRS policy and procedures.


2001-20-146      August                        The Internal Revenue Service Is Making Progress, But Is
                  2001                         Not Yet in Full Compliance With the Requirements of the
                                               Clinger-Cohen Act

                                  08/01/03     F-1, R-1, P-1. Prepare an overall strategy, plan and schedule to
                                               bring the IRS in full compliance with the Clinger-Cohen Act.

2001-30-132      August                        Significant Tax Revenue May Be Lost Due to Inaccurate
                  2001                         Reporting of Taxpayer Identification Numbers for
                                               Independent Contractors

                                  07/01/03     F-2, R-1, P-1. Explore opportunities to supplement the IRS’ future
                                               Internet-based Taxpayer Identification Number (TIN) confirmation
                                               program with an automated telephone-based TIN confirmation
                                               process for those payers who do not have Internet access.

2001-10-147     September                      Compliance with Certain Taxpayer Rights Provisions
                  2001                         Contained in the Internal Revenue Service Restructuring
                                               and Reform Act of 1998 Could Be Improved

                                  07/01/03     F-1, R-2, P-1. Complete the request for programming changes for
                                               the Integrated Data Retrieval System, Automated Collection
                                               System, and Integrated Collection System to print detailed interest
                                               and penalty notices.

2002-30-042     December                       The Internal Revenue Service Has Made Some Progress,
                  2001                         but Significant Improvements Are Still Needed to Reduce
                                               Errors in Manual Interest Calculations

                                  05/01/03     F-1, R-2, P-1. Establish a national quality review process that
                                               includes all restricted interest cases.




 Appendix III – Statistical Reports – Others                                                       Page 52
  TIGTA Semiannual Report to Congress


                                Projected            Report Title and Recommendation Summary
Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                             P = Plan Number)

2002-10-009    January 2002                     GPRA: Criminal Investigation Can Improve Its
                                                Performance Measures to Better Account for Its Results

                                  10/01/03      F-2, R-1, P-1. Establish a process by which the Criminal
                                                Investigation Management Information System data will be
                                                verified and validated.
                                  03/01/03      F-2, R-2, P-1. Ensure that audit trail requirements are met and
                                                documented, and that an Information System Security Officer is
                                                assigned to review audit trail data.


2002-30-050      February                       Significant Efforts Have Been Made to Combat Abusive
                   2002                         Trusts, but Additional Improvements Are Needed to
                                                Ensure Fairness and Compliance Objectives Are Achieved

                                  03/01/03      F-2, R-1, P-1. Ensure the Abusive Trust Program consistently
                                                applies the accuracy-related penalty in accordance with
                                                IRS policy, in order to help ensure fair and equitable taxpayer
                                                treatment.
                                  02/01/03      F-2, R-2, P-1. Provide examiners with formal guidance on the
                                                appropriate application of the accuracy-related penalty, in order to
                                                help ensure its consistent application.
                                  10/01/03      F-4, R-1, P-1. Develop a system to capture the results of U.S.
                                                Income Tax Returns for Estates and Trusts (Form 1041)
                                                examinations that would provide management with information on
                                                emerging abusive trust issues, further noncompliance and allocate
                                                resources to maximize audit results.

2002-30-062       March                         The Internal Revenue Service Continues to Owe Millions of
                  2002                          Dollars in Interest to Taxpayers with Frozen Refunds

                                  01/01/04      F-1, R-1, P-1. Modify the IRS’ computer system to systemically
                                                release the newly established Million Dollar Freeze for credit
                                                balances that fall below the $10 million threshold.
                                P-1: 01/01/04   F-1, R-2, P-1, P-2. Establish indicators on key computer screens
                                P-2: 01/01/04   and generate periodic notices as alerts for employees to review
                                                accounts with Million Dollar Freeze and take appropriate resolution
                                                actions.
                                P-1: 03/01/04   F-2, R-1, P-1, P-2. Coordinate efforts to provide updated training
                                P-2: 03/15/04   for employees that manually initiate refunds.




 Appendix III – Statistical Reports – Others                                                        Page 53
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

2002-10-078       March                        The Internal Revenue Service’s Levy Process Can Be
                  2002                         Improved to Ensure Compliance With the Internal
                                               Revenue Code

                                  07/01/03     F-1, R-1, P-2. Take additional actions to ensure that open levies
                                               are identified and released as appropriate when Automated
                                               Collection System (ACS) personnel close a case Currently Not
                                               Collectible (CNC) Hardship.
                                  07/01/03     F-1, R-2, P-1. Ensure that revenue officers review available
                                               information to properly identify levies issued by ACS personnel and
                                               ensure the levies are appropriately released prior to closing a case
                                               CNC (Hardship).
                                  07/01/03     F-1, R-3, P-2. Before approving a CNC (Hardship) case closure,
                                               the case files should be reviewed to ensure levies are released, if
                                               appropriate, in compliance with the Internal Revenue Code. The
                                               revenue officer should document in the case history the reason
                                               why a levy was closed rather than released.
                                  07/01/03     F-2, R-2, P-1. Ensure that a hardship determination is made
                                               before approving cases closed CNC.


2002-30-125       July                         The Internal Revenue Service Does Not Always Address
                  2002                         Subchapter S Corporation Officer Compensation During
                                               Examinations

                                  06/15/03     F-1, R-1, P-1. Provide technical guidance and resources (such as
                                               software) to field personnel to aid in determining reasonable
                                               officer compensation.
                                  02/01/04     F-2, R-1, P-1. Submit a Request for Information Services (RIS)
                                               that would require the corporate distributions on the Schedule M-2
                                               to be input to the IRS’ computer system during returns processing,
                                               and therefore available to the
                                               IRS Midwest Automated Compliance System (MACS) database.
                                  03/01/03     F-3, R-1, P-1. Submit a RIS to existing (and/or future) information
                                               systems (such as Examination Operational Database) to identify
                                               officer compensation-related adjustment assessments made to
                                               S Corporation employment tax accounts.
                                  02/01/04     F-4, R-1, P-1. Establish consistent materials for educating and
                                               informing taxpayers and representatives of their
                                               S Corporation officer compensation tax obligations.




 Appendix III – Statistical Reports – Others                                                       Page 54
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

2002-30-141       July                         The Internal Revenue Service Successfully Processed
                  2002                         Schedules K-1 for Its Matching Program, However, Tax
                                               Form Changes Would Reduce Unnecessary Notices to
                                               Taxpayers

                                  10/01/03     F-3, R-1, P-1. Make changes to the U.S. Individual Income Tax
                                               Return, Supplemental Income and Loss (Form 1040, Schedule E)
                                               as recommended in the District Office Research and Analysis
                                               study. Consideration should be given to classifying and reporting
                                               pass through income to facilitate easier comparisons to Schedules
                                               K-1 and to make the matching program more effective and less
                                               subject to extensive manual screening.


2002-40-144      August                        Computers Used to Provide Free Tax Help and That
                  2002                         Contain Taxpayer Information Cannot Be Accounted
                                               For

                                  07/15/03     F-1, R-1, P-1. Perform a physical inventory of all computers
                                               included in the IRS’ Volunteer Income Tax Assistance/Tax
                                               Counseling for the Elderly (VITA/TCE) Program. This inventory
                                               should include verification of computers presently recorded on the
                                               Information Technology Asset Management System (ITAMS) as
                                               well as identification of computers in the VITA/TCE Program that
                                               are not yet recorded on ITAMS.
                                  06/15/03     F-1, R-4, P-1. Develop, distribute, and implement procedures to
                                               ensure that only authorized software is loaded onto computers
                                               used in the IRS’ VITA/TCE Program. Included in these procedures
                                               should be an immediate assessment of computers previously
                                               provided to volunteers to ensure that unauthorized software, if
                                               identified, is removed.
                                  05/15/03     F-1, R-5, P-1. Ensure that prior to loading software not specifically
                                               used in tax return preparation a written opinion from IRS Counsel
                                               is obtained to ensure that the IRS has the legal authority to
                                               provide the software.
                                  05/15/03     F-1, R-6, P-1. In the long term, pursue legislative changes that
                                               would allow IRS to transfer ownership of the computers to the
                                               VITA/TCE organizations.




 Appendix III – Statistical Reports – Others                                                       Page 55
  TIGTA Semiannual Report to Congress


                                Projected            Report Title and Recommendation Summary
Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                             P = Plan Number)

2002-30-156     September                       The Internal Revenue Service Does Not Penalize
                  2002                          Employers that File Wage and Tax Statements with
                                                Inaccurate Social Security Numbers

                                  07/01/04      F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their
                                                response to our memorandum dated February 1, 2002, a regularly
                                                scheduled program for proposing penalties for Wage and Tax
                                                Statements (Forms W-2) with inaccurate name/Social Security
                                                Number combinations.
                                  07/15/03      F-1, R-2, P-1. Prepare a document describing the objective of the
                                                joint IRS/Social Security Administration program for the most
                                                egregious non-compliant employers, as well as the tasks,
                                                responsibilities, and agreements that are needed between the two
                                                agencies to meet the objective.


2002-30-186     September                       The Internal Revenue Service Needs to Simplify Filing
                  2002                          Requirements and Clarify Processing Procedures for Small
                                                Business Corporate Returns

                                P-1: 01/15/04   F-1, R-1, P-1, P-2. Simplify the process of filing election forms and
                                P-2: 01/15/04   U.S. Income Tax Returns for an S Corporation (Form 1120S) for
                                                new filers by determining if there are alternatives to make it easier
                                                for first-time filers to be granted elections and file their Forms
                                                1120S, and by considering implementing alternatives and seeking
                                                modification of the legal requirements, as necessary.
                                P-1: 01/15/04   F-1, R-2, P-1, P-2. Develop procedures that would improve and
                                P-2: 01/15/04   simplify the process for approving, recording, and controlling
                                                elections and the related notification process to make it easier for
                                                taxpayers to file their Forms 1120S.
                                  01/15/04      F-2, R-1, P-1. Establish procedures for ensuring that IRS records
                                                accurately reflect the filing of Forms 1120S once the IRS
                                                subsequently verifies that an election was granted. Specific
                                                procedures should be developed for converting the Forms 1120
                                                back to the originally intended Forms 1120S.
                                  01/15/04      F-2, R-2, P-1. Clarify Internal Revenue Manual procedures and
                                                assign responsibility for determining and assessing the correct
                                                taxes and issuing statutory notices of deficiency for small business
                                                corporate returns that could not be processed because the IRS
                                                could not verify that valid elections were filed.




 Appendix III – Statistical Reports – Others                                                        Page 56
  TIGTA Semiannual Report to Congress


                                Projected           Report Title and Recommendation Summary
Reference                      Completion         (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date                            P = Plan Number)

2002-10-187     September                      The New Suspension of Interest Provision Is Not Always
                  2002                         Calculated Correctly

                                  06/01/03     F-1, R-1, P-1. Create a systemic reminder when tax audits are
                                               completed that would prompt employees and managers to
                                               consider whether the suspension of interest provision applies.
                                  06/01/03     F-1, R-2, P-1. Incorporate review requirements for the suspension
                                               of interest provision in the Examination Quality Review Process
                                               system.
                                  06/01/03     F-2, R-1, P-1. Identify all taxpayers with under assessed interest
                                               caused by the original Master File computer programming,
                                               regardless of whether or not the interest had been reestablished
                                               on the accounts, and zero out any under assessed amounts to
                                               prevent burden on future disaster relief taxpayers or other
                                               taxpayers in special military conditions.
                                  06/01/03     F-2, R-2, P-1. Identify disaster relief taxpayers and refund the
                                               amounts that were automatically collected on the under assessed
                                               interest.
                                  01/01/04     F-3, R-1, P-1. Submit a request for information services that will
                                               change the Master File computer programming for this
                                               1-day discrepancy when calculating suspension of interest.
                                  01/01/04     F-3, R-2, P-1. Determine the feasibility of an earlier anticipated
                                               operational date of the Master File computer programming
                                               modification involving weekend and holidays when calculating
                                               suspension of interest.
                                  01/01/04     F-3, R-3, P-1. Identify taxpayers’ accounts for Tax Years 1998 and
                                               1999 with disallowed Earned Income Tax Credit amounts that
                                               qualified for suspension of interest and reduce the amount of over
                                               assessed interest on these accounts.

2002-10-196     September                      Criminal Investigation’s Use of Confidential Funds for
                  2002                         Undercover Operations Is Appropriate; However, Certain
                                               Aspects of Undercover Operations Need Improvement

                                  01/01/04     F-1, R-2, P-1. Develop a methodology for determining when IRS
                                               employees access tax identifying numbers that are associated with
                                               undercover identities and entities.
                                  10/01/03     F-4, R-1, P-1. Reemphasize the procedures to ensure that
                                               operational and financial reviews are timely performed as
                                               required, and prescribe the level of detail to be recorded in
                                               storefront logs to enhance the usefulness of this document as a
                                               monitoring and evaluative tool.




 Appendix III – Statistical Reports – Others                                                     Page 57
 TIGTA Semiannual Report to Congress


                            Statistical Reports - Others

       Access to Information

       The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of information
       available to the agency that relate to programs and operations for which the IG has
       responsibilities.

       As of March 31, 2003, there were no instances where information or assistance requested by
       OA was refused.

       Disputed Audit Recommendations

       The Inspector General Act of 1978 requires IGs to provide information on significant
       management decisions in response to audit recommendations with which the IG disagrees.

       As of March 31, 2003, TIGTA did not issue a report where a significant recommendation
       was disputed.

       Revised Management Decisions

       The Inspector General Act of 1978 requires IGs to provide a description and explanation of the
       reasons for any significant revised management decisions made during the reporting period.

       As of March 31, 2003, no significant management decisions were revised.

       Audit Reports Issued in the Prior Reporting Period With No Management Response

       The Inspector General Act of 1978 requires IGs to provide a summary of each audit report issued
       before the beginning of the current reporting period for which no management response has
       been received by the end of the current reporting period.

       As of March 31, 2003, there were no prior reports where management’s response was
       not received .

       Review of Legislation and Regulations
       The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and
       regulations and to make recommendations concerning the impact of such legislation or
       regulations.

       TIGTA’s Office of Chief Counsel reviewed 85 proposed legislation and regulations during the
       six-month reporting period.




Appendix III – Statistical Reports – Others                                                  Page 58
 TIGTA Semiannual Report to Congress


               Appendix IV – Audit Products
           Audit Products : October 1, 2002 – March 31, 2003


                           Inspector General Congressional Testimony

     Reference Number                                Report Title


       February, 2003

       •    2003-0T-096        Hearing Before the House Appropriations Transportation, Treasury,
                               and Independent Agencies Subcommittee



                                        Audit Products

     Reference Number                               Report Title


       October, 2002

       •    2003-20-005        Many Advances Made, But Additional Emphasis Is Needed on
                               Key Initiatives in the Security Services Organization
       •    2003-40-002        The Internal Revenue Service Needs to Improve Oversight of
                               Remittance Processing Operations
       •    2003-20-004        Physical Security Can Be Improved to Maximize Protection
                               Against Unauthorized Access and Questionable Mail
       •    2003-30-001        Significant Efforts Have Been Made to Provide Taxpayers Better
                               Access to the Toll-Free Telephone System, but Additional
                               Improvements Are Needed
       •    2003-20-003        Continued Emphasis Is Needed to Establish a Mature Intrusion
                               Detection System
       •    2003-20-019        Computer Security Vulnerabilities Vary Among Internal Revenue
                               Service Offices
       •    2003-40-006        Improvements to the Questionable Form W-4 Program Are
                               Needed to Determine Program Impact on Taxpayer Compliance
       •    2003-1C-008        TIRNO-95-D-00062 Incurred Costs Audit for Fiscal Year 2000




Appendix IV – Audit Products                                                                Page 59
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                                Report Title


       October, 2002

       •   2003-1C-009         TIRNO-95-D-0067, TIRNO-95-D-00048, and TIRNO-98-R-00001
                               Report on Examination of Direct and Indirect Costs and Rates for
                               Fiscal Year Ended December 24, 1999
       •   2003-1C-010         TIRNO-95-D-00066 and TIRNO-00-D-00020 Incurred Cost Audit
                               for Fiscal Years Ended June 30, 2000 and 2001
       •   2003-1C-011         TIRNO-95-D-00066 Cumulative Allowable Cost Worksheet Fiscal
                               Years Ended June 30, 1998 and 1999
       •   2003-1C-012         Audit of Final Voucher TIRNO-95-D-00057 Task Order Number 0008
       •   2003-1C-013         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number 0009
       •   2003-1C-015         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number 0015
       •   2003-1C-016         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number 0021
       •   2003-1C-017         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number 0023
       •   2003-20-007         Analysis of Business Systems Modernization Cost, Schedule, and
                               Functionality Performance
       •   2003-40-014         Response Accuracy Is Higher for the Internet Program Than for
                               Other Options Available to Taxpayers Needing Assistance With
                               Tax Law Questions (Taxpayer Burden: 16% no-response rate for
                               taxpayers’ questions asked via the Internet.)


       November, 2002

       •   2003-20-018         Improvements in the Customer Account Data Engine Pilot Plan
                               Need to Be Considered to Help Ensure the Pilot’s Success
       •   2003-30-020         Management Oversight of the Acceptance Agent Program Is
                               Needed to Assure that Individual Taxpayer Identification
                               Numbers Are Properly Issued
       •   2003-40-025         Taxpayer Rights to Appeal Federal Tax Liens Were Protected
       •   2003-40-023         Trends in Customer Service in the Taxpayer Assistance Centers
                               Show Procedural and Training Causes for Inaccurate Answers to
                               Tax Law Questions (Funds Put to Better Use: $277,000; Taxpayer
                               Burden: 126 taxpayers could have received incorrect responses at
                               Taxpayer Assistance Centers.)
       •   2003-40-024         Taxpayers That Visited Taxpayer Assistance Centers in July and
                               August 2002 Received Incorrect Answers to Some Tax Law
                               Questions




Appendix IV – Audit Products                                                                Page 60
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                                Report Title


       December, 2002

       •   2003-1C-027         TIRNO-95-D-00059 Incurred Costs Audit for Fiscal Year 1999
       •   2003-1C-028         General and Administrative Rate Application Submission
       •   2003-1C-029         Audit of Final Voucher TIRNO-95-D-00057 Task Order Number
                               IR-96-NO-1014
       •   2003-1C-030         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number
                               IR-96-NO-0785
       •   2003-1C-032         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number
                               IR-96-NO-3238
       •   2003-1C-033         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number
                               IR-96-NO-4701
       •   2003-30-021         Continued Progress Is Needed to Improve the Timeliness of
                               Providing Legal Advice in Large and Mid-Size Business Division
                               Examinations
       •   2003-20-026         The Internal Revenue Service Has Made Substantial Progress in
                               Its Business Continuity Program, but Continued Efforts Are
                               Needed
       •   2003-40-034         The Internal Revenue Service Successfully Planned for and
                               Executed the Rate Reduction Credit Recovery Program
       •   2003-40-037         Not All Available Information Was Considered When Examining
                               Tax Returns at the Austin Campus During the Fiscal Year 2000
                               Earned Income Credit Initiative (Increased Revenue: $10,623;
                               Taxpayer Rights and Entitlements: three taxpayers impacted by
                               the loss of Social Security quarter credits.)
       •   2003-40-022         Improvements Are Needed to Prevent the Potential Disclosure of
                               Confidential Taxpayer Information (Taxpayer Privacy and
                               Security: 1.1 million Taxpayer Identification Numbers (TIN)
                               improperly transmitted and 210,017 TINs transmitted to private
                               contractors whose facilities were not inspected to insure
                               adequate protection.)
       •   2003-1C-036         Audit of Final Vouchers TIRNO-95-D-00065, Task Order Numbers
                               0001 and 0021
       •   2003-30-038         Business Tax Returns Were Successfully Processed in Two
                               Locations in 2002; However, Taxpayers Need More Information
                               on Where to File (Funds Put to Better Use: $1.19 million.)
       •   2003-20-035         Additional Cost Savings and Increased Productivity in the Print
                               Operation and Computer Support Function Can Be Achieved at
                               the Campus Locations (Funds Put to Better Use: $2.24 million.)


Appendix IV – Audit Products                                                                Page 61
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                                 Report Title


       January, 2003


       •   2003-40-040         Taxpayers That Visited Taxpayer Assistance Centers During
                               September and October 2002 Received More Correct Answers to
                               Tax Law Questions Than in Prior Months
       •   2003-30-039         Improvements to the Electronic Return Originator Monitoring
                               Program Are Needed
       •   2003-30-041         The Examination Quality Measurement System Program Can Be
                               Enhanced (Increased Revenue: $9.8 million.)
       •   2003-30-042         The Internal Revenue Service Needs to Be Consistent and Fair
                               When Assessing Interest and Penalties on Employers Who
                               Misclassify Their Employees (Taxpayer Rights and Entitlements:
                               $11.4 million in over assessed penalties and interest affecting
                               4,610 tax returns.)
       •   2003-30-043         The Internal Revenue Service Has Made Substantial Progress
                               Towards Recording Calls as Part of the Quality Assurance
                               Monitoring of its Toll-Free Telephone Assistance
       •   2003-30-044         Actions Are Being Taken to Improve the Automated Collection
                               System, but a More Effective Planning and Management
                               Framework Is Needed
       •   2003-1C-031         Audit of Final Voucher TIRNO-95-D-00057, Task Order Number
                               IR-95-NO-4282
       •   2003-40-045         Significant Progress Has Been Made to Provide Interpreter
                               Services to Non-English Speaking Taxpayers in the Taxpayer
                               Assistance Centers, but Improvements Are Needed (Taxpayer
                               Burden: 61,000 non-English speaking persons that did not have
                               access to Taxpayer Assistance Center over-the-phone interpreter
                               service.)
       •   2003-40-046         Analysis of Statistical Information for Returns With Potentially
                               Unclaimed Additional Child Tax Credit

       February, 2003

       •   2003-10-048         Significant Progress Has Been Made to Increase the Percentage
                               of Electronic Vendor Payments
       •   2003-20-047         Progress Has Been Made in Protecting Critical Assets
       •   2003-20-053         Enhancements to the Internet Refund Project Need to Be
                               Completed to Ensure Planned Benefits to Taxpayers Are Realized
       •   2003-20-056         Use of Unapproved Wireless Technology Puts Sensitive Data at
                               Risk


Appendix IV – Audit Products                                                                  Page 62
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                                Report Title


       February, 2003


       •   2003-20-064         Computer Security Weaknesses at State Agencies Put Federal Tax
                               Information at Risk
       •   2003-40-055         The Internal Revenue Service Has Procedures to Ensure There is
                               Sufficient Trained Staff to Process Individual Income Tax Returns
                               in 2003
       •   2003-1C-050         Report on Noncompliance With Cost Accounting Standards
                               403 and 418 Found During Contract Performance
       •   2003-1C-057         Report on Noncompliance With Cost Accounting Standard 414
       •   2003-40-066         Fiscal Year 2003 Statutory Review of Compliance With Lien Due
                               Process Procedures (Taxpayer Rights and Entitlements:
                               14,695 Notices of Federal Tax Liens with potential legal violations
                               of taxpayers’ rights.)
       •   2003-20-067         The Business Systems Modernization Quality Assurance Function
                               Has Established a Solid Set of Policies and Procedures That Can
                               Be Further Enhanced
       •   2003-10-065         The Exempt Organizations Examination Support Section
                               Accurately and Timely Processed Closed Examinations, but
                               Controls Over Case Receipt Can Be Improved (Reliability of
                               Information: 288 accounts that were not properly controlled after
                               the examination was completed.)
       •   2003-20-049         Employee Background Investigations Were Normally Completed;
                               However, the Contractor Employee Background Investigation
                               Program Needs Improvement (Increased Revenue:
                               $688,842; Funds Put to Better Use: $30,000; Protection of
                               Resources: $339,040 spent building a database that should have
                               been integrated with another system; Taxpayer Privacy and
                               Security: database does not contain information on
                               2,166 contractors.)
       •   2003-20-070         Management of the Information Systems Budget Has Improved,
                               but Additional Progress Can Be Made (Reliability of Information:
                               27 budget transfers, totaling $12.7 million, without evidence of
                               managerial review and/or approval.)


        March, 2003

       •   2003-1C-058         Report on Audit of Billing System Internal Controls
       •   2003-1C-059         Report on Outstanding Estimating System Deficiencies
       •   2003-1C-060         Report on Audit of Budget and Planning System Internal Controls


Appendix IV – Audit Products                                                                 Page 63
 TIGTA Semiannual Report to Congress

                                         Audit Products

     Reference Number                                 Report Title


       March, 2003

       •   2003-1C-061         Report on Audit of Proposed Fiscal Year 2001 Direct Labor
                               Forward Pricing Rates, Full Time Accounting Factor, and
                               Escalation Rate
       •   2003-1C-062         Report on Audit of Timekeeping Practices for Fiscal Year 2000
       •   2003-10-068         The Internal Revenue Service Should Improve the Management
                               of Its Energy Conservation Program (Reliability of Information:
                               information that is used to report on compliance with energy
                               conservation requirements is not reliable for the $21 million spent
                               on energy/utility expenses at 11 delegated sites.)
       •   2003-20-069         Improvements in the Measures Program for Information
                               Technology Services Would Further Increase Its Value to
                               Stakeholders
       •   2003-40-072         Taxpayers That Visited Taxpayer Assistance Centers in November
                               and December 2002 Received Incorrect Answers to Some Tax
                               Law Questions
       •   2003-10-074         The National Taxpayer Advocate Has Improved the Quality of
                               Casework, but Continued Vigilance Is Needed to Increase
                               Compliance With the Quality Standards
       •   2003-10-076         Improved Oversight of the Guard Services Contract Is Needed to
                               Ensure Compliance With Contract Terms and Conditions
                               (Questioned Costs: $4.72 million.)
       •   2003-30-071         The Internal Revenue Service Could Reduce the Number of
                               Unnecessary Notices Sent to Taxpayers Regarding Unreported
                               Income From Schedules K-1 (Funds Put to Better Use:
                               $3 million.)
       •   2003-30-075         Efforts to Develop a Successful Collection Contract Support
                               Program Could Be Enhanced
       •   2003-40-073         Pre-Filing Season Activities to Address Specific Individual
                               Electronic Filing Issues Were Adequately Conducted
       •   2003-40-080         Terrorist Victims’ Tax Relief Refunds Were Accurate, but Some
                               Were Delayed (Taxpayer Rights and Entitlements: five returns
                               with over-assessed taxes of approximately $60,000.)
       •   2003-10-054         The Internal Revenue Service Needs to Establish an Effective
                               Process to Accurately Identify, Record, and Report
                               Unemployment Trust Fund Administrative Expenses (Reliability of
                               Information: the IRS reported $294.6 million of Unemployment
                               Trust Fund expenses that could not be supported or replicated.)




Appendix IV – Audit Products                                                                 Page 64
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                                Report Title


       March, 2003

       •   2003-10-079         The Internal Revenue Service’s Federal Financial Management
                               Improvement Act Remediation Plan as of December 31, 2002
                               (Reliability of Information: resources in the amount of
                               $2.1 million included in the Remediation Plan were not verifiable
                               to supporting documentation nor consistently reported.)
       •   2003-20-089         Adhering to Established Development Guidelines Will Help to
                               Ensure the Customer Account Data Engine Meets Expectations
       •   2003-30-083         Bankruptcy Closing Actions Do Not Always Protect the Federal
                               Government’s Interests and Taxpayer Rights (Increased
                               Revenue: $956,097 affecting 1,550 taxpayers; Taxpayer Rights
                               and Entitlements: 1,187 taxpayers due refunds of $49,009;
                               Taxpayer Burden: 73 taxpayers received unnecessary notices;
                               Reliability of Information: 79 taxpayers who may be in
                               bankruptcy status, but are not listed in the Automated Insolvency
                               System or Public Access to Court Electronic Records system.)
       •   2003-40-090         Fiscal Year 2003 Statutory Audit of Compliance With Legal
                               Guidelines Restricting the Use of Records of Tax Enforcement
                               Results
       •   2003-40-091         Dependent Database Information Is Complete and Examination
                               Cases Are Accurately Scored
       •   2003-10-077         The Failure to Pay Penalty Is Not Always Calculated or Assessed
                               Correctly (Taxpayer Rights and Entitlements: 1.46 million
                               taxpayer accounts were over assessed $14.3 million because the
                               Failure to Pay Penalty was either not reduced when taxpayers
                               receive installment agreements or calculated accurately and
                               consistently.)
       •   2003-10-088         Job Series Upgrades Were Proper, but Projected Cost Savings
                               Could Not Be Substantiated
       •   2003-10-081         Improvements to the Office of Chief Counsel’s Published
                               Guidance Process Would Enhance Guidance Provided to
                               Taxpayers and the Internal Revenue Service
       •   2003-10-093         The Equal Employment Opportunity Alternative Dispute
                               Resolution Program Could Be Improved
       •   2003-10-094         Improvements Are Needed in the Monitoring of Criminal
                               Investigation Controls Placed on Taxpayers’ Accounts When
                               Refund Fraud Is Suspected (Revenue Protection: $1.34 Million;
                               Taxpayer Rights and Entitlements: unnecessary delays in
                               resolving tax accounts or issuing legitimate refunds involving
                               48 taxpayers for $34,874 and 11,530 tax return periods.)
       •   2003-20-082         Penetration Test of Internal Revenue Service Computer Systems

Appendix IV – Audit Products                                                                    Page 65
 TIGTA Semiannual Report to Congress

                                        Audit Products

     Reference Number                               Report Title


       March, 2003

       •   2003-30-078         Trends in Compliance Activities Through Fiscal Year 2002
       •   2003-40-092         Opportunities Exist to Expand the TeleFile Program (Funds Put to
                               Better Use: $31.86 million; Taxpayer Burden: 5.9 million
                               taxpayers would save time using TeleFile, valued at
                               $312.7 million.)




Appendix IV – Audit Products                                                              Page 66
      TIGTA Semiannual Report to Congress


                  Appendix V – Statutory TIGTA
                    Reporting Requirements
Eighteen statutory audit reports that dealt with the adequacy and security of IRS technology were issued
during this reporting period.1

In FY 2003, TIGTA completed its fourth round of statutory reviews that are required annually by Internal
Revenue Service Restructuring and Reform Act of 1998 (RRA 98). The following table reflects the status of
the FY 2003 RRA 98 statutory reviews.


     Reference to Statutory          Explanation of the
           Coverage                      Provision                       Comments/TIGTA Audit Status

 Enforcement Statistics            An evaluation of IRS’        Reference No. 2003-40-090, March 2003:
                                   compliance with
 I.R.C.                            restrictions under           IRS is generally complying with the law. A review
 § 7803(d)(1)(A)(i)                Section 1204 of              of 74 judgmentally sampled enforcement
                                   RRA 98 on the use of         employees’ performance and related supervisory
                                   enforcement statistics       documentation prepared between
                                   to evaluate IRS              October 1, 2001, and August 31, 2002, revealed
                                   employees.                   no instances of the use of records of tax
                                                                enforcement results, production quotas, or goals
                                                                to evaluate employee performance. There was
                                                                also improvement over the previous year in
                                                                documenting the evaluation of employees on the
                                                                fair and equitable treatment of taxpayers. In
                                                                addition, a review of 21 statistically sampled
                                                                appropriate supervisors showed the IRS completed
                                                                the required consolidated office certification
                                                                memorandums on whether records of tax
                                                                enforcement results were used in a prohibitive
                                                                manner.


 Restrictions on Directly          An evaluation of IRS’        Audit fieldwork in progress.
 Contacting Taxpayers              compliance with
                                   restrictions under I.R.C.
 I.R.C.                            § 7521 on directly
 § 7803(d)(1)(A)(ii)               contacting taxpayers
                                   who have indicated that
                                   they prefer their
                                   representatives be
                                   contacted.
 1
  This includes 8 audit reports on IRS information technology, and 10 audit reports on the security of IRS technology.
 All information technology program reviews are considered statutory based on the RRA 98 requirement to report
 annually on the adequacy and security of IRS technology.


     Appendix V – Statutory TIGTA
     Reporting Requirements                                                                                 Page 67
  TIGTA Semiannual Report to Congress

 Reference to Statutory          Explanation of the
       Coverage                      Provision                      Comments/TIGTA Audit Status

Filing of a Notice of Lien      An evaluation of IRS’       Reference No. 2003-40-066, February 2003:
                                compliance with
                                                            IRS did not completely comply with the law.
I.R.C.                          required procedures
                                                            A review of 300 Notices of Federal Tax Liens
§ 7803(d)(1)(A)(iii)            under I.R.C. § 6320
                                                            (NFTLs) identified 12 NFTLs (4%) where
                                (Supp. IV 1998) upon
                                                            IRS did not comply with all the provisions of
                                the filing of a notice of
                                                            I.R.C. § 6320. IRS correctly mailed the lien
                                lien.
                                                            notices; however, it did not mail all of them
                                                            timely. In addition, for another 16 NFTLs
                                                            (5%), OA could not determine if IRS complied
                                                            with the law because it did not provide proof of
                                                            timely mailing. In 59 (20%) of the 300 NFTLs,
                                                            IRS did not follow its own internal guidelines when
                                                            issuing lien notices, including its guidelines for
                                                            notifying taxpayer representatives and receipting
                                                            and maintaining certified mail registers.


Levies                          An evaluation of IRS’       Audit fieldwork completed.
                                compliance with
I.R.C.                          required procedures
§ 7803(d)(1)(A)(iv)             under I.R.C § 6330
                                (Supp. IV 1998)
                                regarding levies.


Collection Due Process          An evaluation of IRS’       Audit fieldwork in progress.
                                compliance with
I.R.C.                          required procedures
§ 7803(d)(1)(A)(iii) and (iv)   under I.R.C. §§ 6320
                                and 6330 (Supp. IV
                                1998) regarding the
                                taxpayers’ rights to
                                appeal lien or levy
                                actions.

Seizures                        An evaluation of IRS’       Discussion draft audit report issued to
                                compliance with             IRS management.
I.R.C.                          required procedures
§ 7803(d)(1)(A)(iv)             under Subchapter D of
                                Chapter 64 for seizure
                                of property for
                                collection of taxes.




Appendix V – Statutory TIGTA
Reporting Requirements                                                                                Page 68
  TIGTA Semiannual Report to Congress

 Reference to Statutory        Explanation of the
       Coverage                    Provision                     Comments/TIGTA Audit Status

Taxpayer Designations –      An evaluation of IRS’       Draft audit report issued.
Illegal Tax Protester        compliance with
Designation and Nonfiler     restrictions under
Designation                  Section 3707 of RRA 98
                             on designation of
I.R.C.                       taxpayers.
§ 7803(d)(1)(A)(v)


Disclosure of Collection     Review and certify          Draft audit report issued.
Activities With Respect to   whether or not IRS is
Joint Returns                complying with I.R.C.
                             § 6103(e)(8) to disclose
I.R.C.                       information to an
§ 7803(d)(1)(B)              individual filing a joint
                             return on collection
I.R.C.                       activity involving the
§ 6103(e)(8)                 other individual filing
                             the return.

Taxpayer Complaints          Requires TIGTA to           Statistical results on the number of taxpayer
                             include in each of its      complaints received is prepared by TIGTA’s Office
I.R.C.                       Semiannual Reports to       of Investigations and is reflected in Appendix II.
§ 7803(d)(2)(A)              Congress the number of
                             taxpayer complaints         TIGTA’s Office of Audit’s annual review of
                             received and the            IRS management’s process for accumulating and
                             number of employee          reporting taxpayer complaint data is currently in
                             misconduct and              the audit planning process.
                             taxpayer abuse
                             allegations received by
                             IRS or TIGTA from
                             taxpayers, IRS
                             employees and other
                             sources.




Appendix V – Statutory TIGTA
Reporting Requirements                                                                          Page 69
  TIGTA Semiannual Report to Congress

 Reference to Statutory         Explanation of the
       Coverage                     Provision                      Comments/TIGTA Audit Status

Administrative or Civil        Include information         Audit fieldwork in progress.
Actions With Respect to the    regarding any
Fair Debt Collection           administrative or civil
Practices Act of 1996          actions with respect to
                               violations of the fair
I.R.C.                         debt collection provision
§ 7803(d)(1)(G)                of I.R.C. § 6304,
                               including a summary of
I.R.C.                         such actions, and any
§ 6304                         resulting judgments or
Section 3466 of                awards granted.
RRA 98


Denial of Requests for         Include information         Audit fieldwork in progress.
Information                    regarding improper
                               denial of requests for
I.R.C.                         information from IRS,
§ 7803(d)(1)(F)                based on a statistically
                               valid sample of the total
I.R.C.                         number of
§ 7803(d)(3)(A)                determinations made by
                               IRS to deny written
                               requests to disclose
                               information to
                               taxpayers on the basis
                               of I.R.C. § 6103 or
                               5 U.S.C. § 552(b)(7).


Extensions of the Statute of   Include information         Audit fieldwork in progress.
Limitations for Assessment     regarding extensions of
of Tax                         the statute of
                               limitations for
I.R.C.                         assessment of tax
§ 7803(d)(1)(C)                under I.R.C. § 6501 and
                               the provision of notice
I.R.C.                         to taxpayers regarding
§ 6501                         the right to refuse or
                               limit the extension to
                               particular issues or a
                               particular period of
                               time.




Appendix V – Statutory TIGTA
Reporting Requirements                                                                    Page 70
  TIGTA Semiannual Report to Congress

 Reference to Statutory        Explanation of the
       Coverage                    Provision               Comments/TIGTA Audit Status

Adequacy and Security of    Evaluation of IRS’      Information Technology:
the Technology of the IRS   adequacy and security   Reference   No.   2003-20-007,   October 2002
                            of its technology.      Reference   No.   2003-20-018,   November 2002
I.R.C.                                              Reference   No.   2003-20-035,   December 2002
§ 7803(d)(1)(D)                                     Reference   No.   2003-20-053,   February 2003
                                                    Reference   No.   2003-20-067,   February 2003
                                                    Reference   No.   2003-20-070,   February 2003
                                                    Reference   No.   2003-20-069,   March 2003
                                                    Reference   No.   2003-20-089,   March 2003

                                                    Security Reviews:
                                                    Reference   No.   2003-20-003,   October 2002
                                                    Reference   No.   2003-20-004,   October 2002
                                                    Reference   No.   2003-20-005,   October 2002
                                                    Reference   No.   2003-20-019,   October 2002
                                                    Reference   No.   2003-20-026,   December 2002
                                                    Reference   No.   2003-20-064,   February 2003
                                                    Reference   No.   2003-20-047,   February 2003
                                                    Reference   No.   2003-20-049,   February 2003
                                                    Reference   No.   2003-20-056,   February 2003
                                                    Reference   No.   2003-20-082,   March 2003




Appendix V – Statutory TIGTA
Reporting Requirements                                                                       Page 71
TIGTA Semiannual Report to Congress




                                Page 72
 TIGTA Semiannual Report to Congress


     Appendix VI – Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of IRS if there is a final administrative or judicial determination that in the performance
of official duties such employee committed the misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

        Willful failure to obtain the required approval signatures on documents authorizing the seizure
        of a taxpayer’s home, personal belongings, or business assets.

        Providing a false statement under oath with respect to a material matter involving a
        taxpayer or taxpayer representative.

        Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
        IRS,

        •       any right under the Constitution of the United States, or

        •       any civil right established under Title VI or VII of the Civil Rights Act of 1964,
                (Pub. L. No. 88-352, 78 Stat. 241 [codified as amended in 42 U.S.C.
                § 2000e]); Title IX of the Education Amendments of 1972 (20 U.S.C.
                §§ 1681-1688 [1994]; Age Discrimination in Employment Act of 1967
                (29 U.S.C. §§ 621-634 [1994 & Supp. IV 1988]); Age Discrimination Act of 1975
                (42 U.S.C. §§ 6101-6107 [1994 & Supp. IV 1998]); Section 501 or 504 of the
                Rehabilitation Act of 1973 (Pub. L. No. 93-112, 87 Stat. 355 [codified as
                amended in 29 U.S.C. §§ 701 & 794]); or Title I of the Americans with
                Disabilities Act of 1990 (42 U.S.C. §§ 12111 et seq. [1994 & Supp. IV 1998]).

        Falsifying or destroying documents to conceal mistakes made by any employee with
        respect to a matter involving a taxpayer or taxpayer representative.

        Committing assault or battery on a taxpayer, taxpayer representative, or other employee
        of the IRS, but only if there is a criminal conviction, or a final judgment by a court in a
        civil case, with respect to the assault or battery.

        Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS
        (including the Internal Revenue Manual) for the purpose of retaliating against, or
        harassing a taxpayer, taxpayer representative, or other employee of the IRS.

        Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for
        the purpose of concealing information from a Congressional inquiry.

        Willfully failing to file any return of tax required under the Internal Revenue Code of 1986
        on or before the date prescribed therefore (including any extensions), unless such failure
        is due to reasonable cause and not to willful neglect.



Appendix VI – Section 1203 Standards                                                                  Page 73
 TIGTA Semiannual Report to Congress

     Willfully understating Federal tax liability, unless such understatement is due to reasonable
     cause and not to willful neglect.

     Threatening to audit a taxpayer for the purpose of extracting personal gain or
     benefit.

     In general, the Commissioner of Internal Revenue may take a personnel action other than
     employment termination for the misconduct violations outlined above. The exercise of this
     authority shall be at the sole discretion of the Commissioner and may not be delegated to
     any other officer. The Commissioner, in his/her sole discretion, may establish a procedure
     that will be used to determine whether an individual should be referred to the
     Commissioner for a determination by the Commissioner. Any determination of the
     Commissioner in these matters may not be appealed in any administrative or judicial
     proceeding.




Appendix VI – Section 1203 Standards                                                            Page 74
 TIGTA Semiannual Report to Congress




    Call our toll-free hotline to report fraud, waste or abuse:

                      1-800-366-4484
                             or write:

         Treasury Inspector General for
              Tax Administration
                 P.O. Box 589
              Ben Franklin Station
          Washington, D.C. 20044-0589

              Information is confidential and you may
                        remain anonymous




Hotline Information                                        Page 75
